<html>
<title> - TESTIMONY FROM OUTSIDE EXPERTS ON RECOMMENDATIONS FOR A FUTURE NATIONAL DEFENSE STRATEGY</title>
<body><pre>[Senate Hearing 115-231]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-231

                   TESTIMONY FROM OUTSIDE EXPERTS ON
                      RECOMMENDATIONS FOR A FUTURE
                       NATIONAL DEFENSE STRATEGY

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, NOVEMBER 30, 2017

                               __________

         Printed for the use of the Committee on Armed Services
         
         

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


        Available via the World Wide Web: http://www.fdsys.gov/


                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-020 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b7c6b745b786e686f737e776b3578747635">[email&#160;protected]</a> 






                      COMMITTEE ON ARMED SERVICES

                        JOHN McCAIN, Arizona, Chairman
                        
JAMES M. INHOFE, Oklahoma		JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama              	GARY C. PETERS, Michigan
                                     
                                 
                                     
               Christian D. Brose, Staff Director
            Elizabeth L. King, Minority Staff Director

                                  (ii)

  


                         C O N T E N T S

                     ___________________________
                

                           November 30, 2017

                                                                   Page

Testimony From Outside Experts on Recommendations for a Future        1
  National Defense Strategy.

Eaglen, Mackenzie, Resident Fellow of the Marilyn Ware Center for     4
  Security Studies, The American Enterprise Institute.
Karlin, Mara E., Ph.D., Associate Professor of the Practice of       17
  Strategic Studies, Johns Hopkins School of Advanced 
  International Studies.
Spoehr, Lieutenant General Thomas W., U.S. Army, Ret., Director      21
  of the Center for National Defense, Heritage Foundation.
Ochmanek, David A., Senior Defense Research Analyst, Rand            27
  Corporation.
Mahnken, Thomas G., Ph.D., President and Chief Executive Officer,    36
  Center for Strategic Budgetary Assessments.

                                 (iii)

 
                   TESTIMONY FROM OUTSIDE EXPERTS ON
                      RECOMMENDATIONS FOR A FUTURE
                       NATIONAL DEFENSE STRATEGY

                              ----------                              


                      THURSDAY, NOVEMBER 30, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:32 a.m. in 
Room SD-G50, Dirksen Senate Office Building, Senator John 
McCain (chairman of the committee) presiding.
    Present: Senators McCain, Inhofe, Wicker, Fischer, Rounds, 
Ernst, Tillis, Sullivan, Perdue, Sasse, Reed, Nelson, 
McCaskill, Shaheen, Gillibrand, Blumenthal, Donnelly, Hirono, 
Kaine, King, Heinrich, Warren, and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The Senate Armed Services 
Committee meets today to receive testimony from outside experts 
on recommendations for a future National Defense Strategy.
    We welcome our witnesses: Thomas Mahnken, president and CEO 
of the Center for Strategic and Budgetary Assessments; David 
Ochmanek, senior defense research analyst at the RAND 
Corporation; Thomas Spoehr, director at the Heritage 
Foundation; Mara E. Karlin, associate professor at the Johns 
Hopkins School of Advanced International Studies; and Mackenzie 
Eaglen, resident fellow at the American Enterprise Institute.
    Last year, this committee wrote into the National Defense 
Authorization Act a requirement for the Secretary of Defense to 
develop and implement a National Defense Strategy. The intent 
of this document was to prioritize a set of goals and 
articulate a strategy for the U.S. military to achieve 
warfighting superiority over our adversaries. The National 
Defense Strategy is part of this committee's broader effort to 
help guide the Pentagon to develop a more strategic approach in 
response to an increasingly dangerous world.
    Today's hearing will afford us the opportunity to hear 
recommendations from our distinguished panel of defense experts 
on how the Secretary should rise to the challenge of crafting a 
National Defense Strategy. We will look to you for advice on 
how the department should best allocate its resources to 
enhance the capacity and capability of the U.S. military in the 
era of great-power competition.
    To that end, we must begin by explicitly recognizing that 
great-power competition is not a thing of the past. The post-
Cold War era is over.
    Russia and China's rapid military modernization programs 
present real challenges for the American way of the war. 
Because of decisions we have made, and those we have failed to 
make, our military advantages are eroding. Congress is far from 
blameless, as we have, for years, prioritized politics over 
strategy when it comes to our budgeting decisions.
    Next, we must recognize that the window of opportunity to 
reverse the erosion of our military advantage is rapidly 
closing. Just as Congress has been part of this problem, so, 
too, do we have an obligation to be part of the solution. We 
must start doing our job again--pass budgets; go through the 
normal appropriations process; and provide our military with 
adequate, predictable funding.
    As the negotiations on the budget deal to increase the 
spending caps proceed, I know that members of this committee 
will be advocates for a defense budget at the level that an 
overwhelming bipartisan majority of Congress voted to authorize 
in the NDAA, nearly $700 billion for the current fiscal year.
    But we must be clear. We cannot buy our way out of our 
current strategic problem. Even after Congress appropriates 
adequate funds, the department will have a tough road to 
reverse current trendlines. Restoring readiness, modernizing 
the force, and reforming acquisition will all be necessary to 
renew American power.
    But ultimately, all of these efforts will be in vain 
without clear strategic direction.
    The Secretary of Defense and his civilian leadership team 
must exercise real leadership when it comes to strategy, 
planning, and force development. They will have to make 
difficult choices and set clear priorities about the threats we 
face and the missions we assign to our military. That is what 
we have asked the department to do in the National Defense 
Strategy.
    As Secretary James Mattis and the rest of the Department of 
Defense make those hard choices, and especially as they 
identify necessary tradeoffs, they will find allies in this 
chairman and this committee.
    We ask our witnesses to help this committee and the 
department think through these tough questions: How should the 
National Defense Strategy focus on building an effective force 
to counter threats from near-peer competitors, such as Russia 
and China, as well as midlevel powers such as Iran and North 
Korea? How should the NDS address the challenges of 
counterterrorism and articulate a strategy for sustainable 
security in the Middle East region? Even as we advocate for 
increased defense spending, how do we realistically confront 
hard choices about tradeoffs? Simply put, what must we do to 
restore or enhance our ability to deter and defeat any 
adversary in any scenario and across the spectrum of military 
competition? How should we devote our finite taxpayer dollars 
wisely to accomplish these goals?
    Our global challenges have never been greater. Our 
strategic environment has not been this competitive since the 
Cold War. Without the margins of power we once enjoyed, we 
cannot expect to do everything we want everywhere around the 
globe. We must choose. We must prioritize. That is what the 
National Defense Strategy must do.
    I thank our witnesses for their attention to these 
important issues and look forward to their testimony.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman, for 
holding the National Defense Strategy hearing. This strategy is 
currently being developed by the Department of Defense, so this 
is a crucial moment.
    Let me welcome the witnesses. Your work has been important 
to guide us in the past and will be very important as we move 
through this process.
    The Department of Defense faces many complicated and 
rapidly evolving challenges. This is not the first time in our 
Nation's history we have had to confront multiple threats from 
abroad, but it is an incredibly dangerous and uncertain time.
    Russia remains determined to reassert its influence around 
the world, most recently by using malign influence and active 
measures activities to undermine America's faith in our 
electoral process, as well as other Western countries. North 
Korea's nuclear and ballistic missile efforts are an immediate 
and grave national security threat, and the U.S. continues to 
grapple with the fact that there are no quick and certain 
options. China continues to threaten the rules-based order in 
the Asia-Pacific region by economic coercion of its smaller, 
more vulnerable neighbors, and by undermining the freedom of 
navigation. Iran continues their aggressive weapons development 
activities, including ballistic missile development efforts, 
while pursuing other destabilizing activities in the region.
    Likewise, countering the security threat from the Islamic 
State of Iraq and Syria (ISIS) in Iraq and Syria, and its 
spread beyond the Middle East, must remain a high priority, 
while at the same time we must build the capabilities of the 
Afghan National Security Forces and deny any safe haven for 
extremism.
    Crafting a defense strategy that provides guidance to 
policymakers on how to most effectively confront the 
aforementioned challenges, and I would add challenges that are 
emerging through artificial intelligence, autonomous vehicles, 
and cyber innovations, is not a simple task.
    In fact, during the fall of 2015 when this committee held a 
series of hearings to evaluate potential revisions to the 
Goldwater-Nichols Act, one of the predominant themes was that 
the department suffered from a tyranny of consensus when 
crafting defense strategy. In other words, too often, the 
department is consumed by the need to foster agreement among 
all interested parties regarding strategic policy goals rather 
than focusing on the most critical and pressing threats facing 
our country, along with the strategies necessary to thwart 
those threats.
    While consensus should not be discounted, crafting a 
strategy that focuses on the lowest common denominator often 
means difficult strategic choices and alternative policy 
decisions are deferred.
    To address this imbalance, this committee carefully 
reviewed how the department crafts and generates strategy 
documents. The fiscal year 2017 National Defense Authorization 
Act included a provision mandating a new National Defense 
Strategy intended to address the highest priority missions of 
the department, the enduring threats facing our country and our 
allies, and the strategies that the department will employ in 
order to address those threats.
    The committee understands that the department is working 
diligently to finalize the National Defense Strategy by early 
2018. To help inform the department's mission, I hope our 
witnesses today will give their assessment of the threats 
facing our country; the anticipated force posture required to 
address those threats; the challenges confronting military 
readiness and modernization; and, finally, the investments 
necessary for the U.S. to retain overmatch capability against 
near-peer competitors.
    Finally, I believe the effectiveness of the National 
Defense Strategy may be adversely impacted by circumstances 
outside the control of senior civilian and military leadership 
within the Department of Defense. While it does not fall within 
the purview of this committee, I am deeply concerned about the 
Department of State and the health of our Foreign Service. 
Robust international alliances are critical to keeping our 
country safe.
    That requires a diplomatic corps ready and able to 
coordinate closely with allies and partners. It is also 
critical that they have the tools necessary to help partner 
nations proactively across political and social challenges that 
give rise to conflict and extremism. Rather than prioritize the 
State Department's mission, the current administration has 
sought draconian budget cuts that have devastated morale and 
created a mass exodus of seasoned diplomats.
    Let me be clear. Weakening the State Department makes the 
Defense Department's mission that much more difficult. This 
should be a concern for every member of the committee.
    In addition, President Donald Trump has consistently shown 
a fondness for foreign leaders who have been dismissive of core 
American values like human rights and the rule of law. At the 
same time, the President has discounted the importance of 
longtime allies and the global order the United States helped 
establish following World War II. As I have stated previously, 
such actions tend to isolate the United States and weaken our 
influence in the world, ultimately leading to uncertainty and 
risk of miscalculation.
    Therefore, I would be interested in the views of our 
witnesses on these issues, as well as the current interagency 
process for developing national security policy.
    Thank you very much, Mr. Chairman.
    Chairman McCain. Thank you.
    We will begin with you, Ms. Eaglen.

 STATEMENT OF MACKENZIE EAGLEN, RESIDENT FELLOW OF THE MARILYN 
   WARE CENTER FOR SECURITY STUDIES, THE AMERICAN ENTERPRISE 
                           INSTITUTE

    Ms. Eaglen. Thank you, Chairman McCain, Ranking member.
    Chairman McCain. Not with those jerks on your right.
    [Laughter.]
    Ms. Eaglen. Thanks for the chance to be here this morning 
and to talk about the crisis of confidence in defense strategy-
making.
    We can point to both parties, both administrations, both 
branches of government, as you already outlined this morning, 
Mr. Chairman, in your remarks. But the outcome today is that we 
have a problem, and this is the last best chance to fix it.
    So as the Pentagon has been slowly dialing down strategy 
over the years and dialing up strategic risk, the pace of 
operational tempo has remained largely the same, and there is a 
disconnect between the reality as it is in the world and what 
U.S. forces are told that they should be doing on paper.
    Chairman McCain. Can you give us an example of that 
disconnect?
    Ms. Eaglen. Sure, Mr. Chairman. So, for example, in the 
last administration [the Obama Administration], at the tail 
end, there was strategic guidance that U.S. military 
commitments in the Middle East would significantly lessen. The 
administration spent the last 3 years focused, frankly, on 
mostly fights in the Middle East, in Syria and Iraq and 
elsewhere. But it is not limited to the last administration 
either, I should say, this challenge.
    The truth is that the reality as it is, Mr. Chairman, is as 
you have outlined, both of you, the committee as a whole, in 
this year's NDAA. It is that the Pentagon planning and the 
force posture around the world is one of three theaters. It is 
not about X wars or X-plus-one or one-plus-some-other-number. 
But the truth is that the U.S. military focus and emphasis is 
going to remain constant in Europe, the Middle East, and Asia. 
That is not going to change in the foreseeable future.
    Chairman McCain. In the last year, would you say things 
have improved or deteriorated?
    Ms. Eaglen. Around the world?
    Chairman McCain. Especially the Middle East.
    Ms. Eaglen. I would say they have deteriorated, and the 
challenge here, of course, is that we still have this gap in 
strategy. It is okay, because it is the first year of the Trump 
Administration, and so they are getting their bearings and 
crafting it.
    I think we will see more continuity than change, and a more 
muscular status quo in the defense strategy. But that is what 
concerns me, because we have a combination of a deteriorating 
security situation and increased difficulty in our ability to 
deal with it here in Washington, both at the Pentagon and up 
here on Capitol Hill.
    Chairman McCain. You saw the announcement that we were 
going to stop arming the Kurds?
    Ms. Eaglen. Yes.
    Chairman McCain. What is that all about?
    Ms. Eaglen. I do not know, Senator. I wish I was in the 
mind of the administration on that question. It seems like it 
warrants more public debate up here on Capitol Hill, for 
certain, as a key ally.
    Chairman McCain. Thank you. We can save time for question-
and-answer, but what do you think the impact of that is on the 
Kurds?
    Ms. Eaglen. Well, I think there are a variety of impacts 
that could happen here that are all worrisome, all troublesome. 
The first is, of course, who they will make their bets with, 
who they will get in bed with that is not the United States or 
our key allies.
    So if they need to hedge their bets or cut their losses, 
that is not in the favor of the interests that we are looking 
for in the region. That is number one.
    Number two is our credibility. We saw this with the 
redline, but we have seen it in other presidential decisions, 
again, spanning both parties. When we say we are going to do 
one thing and we turn around and do something different, we 
lose credibility. When we lose credibility, we cannot call upon 
our friends and allies to help us when the next crisis happens. 
I think it feeds into the narrative in the region that Russia 
and Iran are gaining power and the United States is losing it.
    Chairman McCain. The impact psychologically of 305 
Egyptians getting killed in one raid?
    Ms. Eaglen. It is really devastating. I think that, in 
terms of Pentagon planning, this is one of the key challenges. 
It is the balance between these ongoing, metastasizing terror 
threats and all the other challenges that they have to face, 
and putting what emphasis where, how much to push down on the 
pedal or not, regarding counterterror efforts.
    [The prepared statement of Ms. Eaglen follows:]

                 Prepared Statement by Mackenzie Eaglen
    Thank you, Chairman McCain, Ranking Member Reed, and distinguished 
members of the Committee on Armed Services for the opportunity to 
evaluate how the Department of Defense should effectively develop and 
implement a new National Defense Strategy.
                      stop repeating past mistakes
    It's long past time for a new National Defense Strategy that seeks 
to break the mold in honesty, clarity, conciseness, and fresh thinking. 
Since the end of the Cold War, these documents have repeatedly served 
as opportunities to redefine American force structure and interests 
globally. Unfortunately, the most recent generation of strategies has 
become increasingly unmoored from the strategic reality the country 
faces. Since the end of the Cold War, the Pentagon's force-sizing 
construct has gradually became muddled and watered down at each 
iteration--from the aspirational objective of fighting two wars at once 
to the declinist ``defeat-and-deny'' approach--without enough 
substantive debate over the wisdom of the progressive abandonment of 
the two-war standard.
    Even before debt reduction became a Washington priority in 2011, 
defense planning became increasingly divorced from global strategic 
realities. American experiences in Iraq and Afghanistan exposed the 
limited utility of a force-sizing construct based on wars. The 
challenge in prosecuting two large stabilization and counterinsurgency 
campaigns during the past decade-and-a-half laid bare the discrepancy 
between our stated defense capabilities and our actual strength. The 
wars that planners envisioned were not the ones the military was called 
upon to fight.
    A lack of definitional clarity and policy consensus about terms 
like ``war,'' ``defeat,'' ``deny'' and even now ``deter'' is far from 
the only problem with previous strategies. A combination of shrinking 
global posture, force reductions, overly optimistic predictions about 
the future, and a deteriorating security environment have led to a 
crisis of confidence in defense strategy making. The Budget Control Act 
further compounded the difficulty of aligning resources with strategy 
through clear and thoughtful prioritization and adjudication between 
tradeoffs. The need to build a defense program to fit declining 
spending caps accelerated the reduction in relevance and scope of 
Pentagon strategy documents.
    Even with declining force-sizing constructs, U.S. forces have 
largely continued to do all that they have done under previous super-
sized strategies. Consequentially, there is now a general dismissal of 
strategy because the reductions in force structure proposed in each 
iteration have not resulted in substantive changes in operations of the 
force. Instead, the armed forces have been asked to do more with less 
and continue to plan campaigns, conduct global counterterrorism, 
reassure allies, and provide deterrence as operational tempos remain 
unwaveringly high.
    Meanwhile various missions and efforts are being shortchanged, 
ignored or dropped altogether as the supply of American military power 
is consistently outstripped by its demand. Some uniformed leaders would 
argue that the challenge is broader, and that the real issue is a 
military endstate-policy outcome incongruity that exists where 
policymakers expect military power to achieve outcomes beyond its 
scope. Both interpretations are correct, and each contributes to the 
lack of credibility in new strategic guidance in the minds of its 
consumers. This lack of faith in defense strategy making and planning 
has contributed to America's global retreat and the worsening 
international security situation.
               crafting an impactful new defense strategy
    The writers of the newest strategy need to face some hard truths.

    <bullet>  Policymakers cannot wish away the need for strong 
American presence in Asia, Europe, and the Middle East. This includes 
assuming America's commitments in the Middle East will go away, get 
easier or eventually become a lesser burden on the military.
    <bullet>  Constructing budgets and then divining strategies, as the 
Budget Control Act has encouraged, is putting the cart before the 
horse.
    <bullet>  Pentagon reforms and efficiencies are noble goals and 
should become standard operating procedure to encourage good 
governance. But the belief that ongoing organizational changes will 
result in tens of billions in potential savings that can be reinvested 
elsewhere within the defense budget has yet to be proven.
    <bullet>  An obsessive hunt for technological silver bullets could 
be our military's ruin, not its salvation--if it comes at the expense 
of medium-term needs.

    To endure as a global power, the United States must never be in the 
position--as it is now in danger of finding itself--of committing its 
last reserves of military power to any single theater. Instead, force 
planners need to grow the size of the armed forces using the 
capabilities on hand. American forces must commit to permanent forward 
presence where they can effectively deter threats before they rise to 
the level of hostilities.
    To facilitate these goals, the strategy should focus not only on 
the need to decisively defeat our enemies, but also to support the 
steady-state operations American forces undertake each day to deter our 
adversaries and reassure our allies in priority theaters abroad.
    What follows are various thoughts on how to break from a status quo 
in defense planning that has failed policymakers and military leaders 
alike, in order to construct a National Defense Strategy that is both 
useful and able to be executed by our nation's armed forces:
    The National Defense Strategy must answer what missions the 
military should prioritize--by extension, it must clearly delineate 
what it can stop doing.  In the last decade, the United States military 
outsourced airlifting of troops to Iraq to Russian companies, NASA 
hitched rides into space also from Russia, Marines embarked on allied 
ships for missions patrolling the African coast, cargo shipments to 
Afghanistan were delayed due to inadequate lift during hurricane relief 
efforts, a private contractor evacuated United States and Nigerian 
troops after the recent ISIS ambush in Niger, and the Air Force has 
outsourced ``red air'' adversary training aircraft to contractors. This 
is just a sample of tasks that are being curtailed as the military 
struggles with fewer resources and finds it cannot actually do ``more 
with less.''
    Yet not all of these capabilities need to be restored--in some 
instances, it may be more efficient to continue to outsource ancillary 
assignments that don't necessarily require military forces to 
prosecute. Instead of papering over these realities, the new strategy 
should spell out explicitly what sacrifices the force could make, and 
signal to allies and partners where they could be most helpful, in 
order to allow the Department of Defense to concentrate on its most 
critical missions.
    Rosy assumptions need to go.  Assumptions about international 
affairs that underpinned the last administration's force planning--that 
Europe would remain peaceful, that the United States was dangerously 
overcommitted across the Middle East, and that a ``rebalance'' to East 
Asia could be accomplished without a substantial increase in forces--
have all proven incorrect.
    The new strategy also has to combat unrealistic assumptions about 
the Department of Defense--such as the belief that reforms and 
efficiencies will generate significant savings that can be reinvested 
elsewhere in the defense budget, and that the Pentagon will certainly 
become more innovative when money is tight.
    Global force management is not a substitute for strategy.  Because 
campaigns can now occur across geographic boundaries and within 
multiple domains of warfare at the same time, the default strategy-in-
motion has become global force management. Despite the flexibility it 
generates, centrally-overseen crisis management is not a substitute for 
strategy. The world is not one global combatant command, nor does any 
one leader, commander, or service have the ability to manage complex 
contingencies as if it were. The forthcoming strategy must restore 
classic force planning and development to Pentagon processes and build 
up a new generation of policymakers and uniformed leaders used to 
operating within these constructs.
    Claiming the ``five challenges'' of China, Russia, Iran, North 
Korea, and persistent counterterrorism operations are all equally 
important is not strategy--it is the absence of one.  Former Defense 
Secretary Ash Carter's list of five challenges--synonymous with the 
Joint Chiefs' ``four-plus-one'' list--has persisted into this 
administration. This construct identifies threats, but it needs to rank 
their relative severity in order to have strategic meaning. Given the 
finite supply of American defense capacity, not all of these threats 
can receive the same amount of attention or bandwidth--nor should they. 
Our force deployments must be rationalized to prevent the use of 
capabilities intended for high-end wars or deterrence being worn down 
in the long grind of ongoing anti-terror operations. Stealth aircraft 
should not be performing fire support missions against the Taliban that 
could be handled by robust army artillery, for example.
    The Pentagon is bigger than a Department of War; it is a Department 
of Defense.  Fighting and winning the nation's wars is an essential 
core mission of America's military. Preventing them is equally 
important. Daily, the U.S. military is active in maintaining a regular 
presence around the globe, cooperating with allies, and checking 
potential aggression. These ``peacetime'' presence and steady state 
activities are the most effective--and certainly the cheapest--use of 
military power. The Pentagon must more accurately size the military to 
not only fight and win multiple contingencies at once, but also to 
conduct the multitude of routine missions, deployments, and forward 
presence that advance and protect American interests overseas.
    It's getting harder to differentiate between war and peace. The 
force-sizing construct should reflect this reality.  The dangers of 
assuming Europe is a net producer of security became apparent the 
moment Russia annexed Ukrainian sovereign territory. In a single 
stroke, the Pentagon's last strategy was rendered moot. The rise of 
ISIS further showcased the perils of American withdrawal from the 
Middle East. Coupled with increasing Chinese and North Korean 
bellicosity, three theaters are obviously vital considerations for 
United States military planning, even if active hostilities involving 
American troops are not underway in all of them simultaneously.
    Each of the five challenges to American security is unique and 
requires tailored responses to mitigate, even in peacetime. Ballistic 
missile defenses have immense use against North Korea, but little 
utility against ISIS. As each of our competitors focus on a particular 
suite of niche capabilities--from Chinese maritime capabilities to 
Russian land power and electronic warfare--America is in the unenviable 
position of needing to respond to all of them. To manage the expense of 
this endeavor, efficiencies must be found to deter and mitigate certain 
threats within an acceptable margin of risk in order to concentrate 
additional resources on more pressing ones.
    The clearest example is terrorism, which is a relative threat and 
not an existential one. The National Defense Strategy must recognize 
that countering terrorism will be a generational struggle that can be 
managed more gradually and cheaply than efforts to counter immediate 
and monumental threats, such as North Korean ICBMs.
    Organize for three theaters, not two wars.  The degradation of the 
two-war standard since the end of the Cold War has left the nation with 
a one-plus-something strategy that is neither well understood nor 
universally accepted by policymakers or service leaders. Planners 
should size forces to maintain robust conventional and strategic 
deterrents in Asia, Europe, and the Middle East, and equip a force for 
decision in the event deterrence fails. \1\ The National Defense 
Strategy must make a clear distinction between the forces, capabilities 
and posture required to prevent a war against a near-peer state versus 
those needed to win one should it break out.
---------------------------------------------------------------------------
    \1\ Thomas Donnelly, Gary Schmitt, Mackenzie Eaglen et al., To 
Rebuild America's Military, American Enterprise Institute, 2015, http:/
/www.aei.org/publication/to-rebuild-americas-military/.
---------------------------------------------------------------------------
    While deterring further Russian and Chinese aggression requires 
advanced aerospace capabilities, the principal presence missions would 
fall on maritime forces in the Pacific and land forces in Europe. In 
the Middle East, the situation is quite different; there is no 
favorable status quo to defend. Securing our regional interest requires 
not just presence, but an active effort to reverse the rising tide of 
adversaries: Iran, ISIS, al Qaeda and its associates, and now Russia. 
If we hope to remain safe and prosperous, America cannot swing among 
these theaters, nor can we retreat to the continental United States. 
This does not mean each theater requires the same amount of assets; 
forces can and should be tailored to the needs of each.
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
      
    Conventional military deterrence is changing. The calculus of 
deterrence is never certain as success is measured in the mindset of 
the adversary, not by a simple count of troops, planes, or ships. Thus 
as situations change, the U.S. military must possess both ample and 
heavy operational reserves and the logistical ability to rapidly deploy 
large and fully joint forces in times of crisis or conflict. This force 
for decision would supplement forward forces to either bolster 
deterrence or successfully prosecute a major conflict if it fails.
    These forces must be of a size and quality to be operationally 
decisive. Given the global interests of the United States and complex 
and divergent terrains of Asia, Europe, and the Middle East, this 
reinforcing force for decision must possess a wide array of 
capabilities across the air, land, sea, space, and cyber domains. Such 
a balanced ``capacity of capabilities'' is necessary to provide the 
widest possible set of options to campaign planners (and the 
president). Although the forward deployed forces in any given theater 
can be more readily tailored to steady-state missions, in times of 
crisis or conflict the need for effectiveness and overmatch supplants 
the need for efficiency. In order to maintain the ability to intervene 
both quickly and decisively, defense planners should favor maintain 
active-duty, highly trained units in both the forward-deployed forces 
and the force for decision based in the continental United States.
    Development of new capabilities should concentrate on securing 
tactical overmatch. Presence missions and train-and-advise efforts are 
crucial to support our allies, but firepower is ultimately what deters 
our foes. The new defense strategy should concisely outline the core 
competencies required of each service by region and threat, and over 
varying time horizons and levels of risk. It should concentrate 
development of new capabilities to restore as much technological 
overmatch as is possible. Planners should also seek opportunities to 
generate efficiencies when possible. For example, introducing a series 
of Armored Cavalry Regiments permanently stationed in Eastern Europe 
comprised of combined arms units would not only provide a powerful 
United States presence to counter Russia, but would allow regional 
partners to better develop their domestic capabilities through 
increased opportunities for bilateral training and exercises.
    The American military needs more inter-service competition, not 
less. In some respects, the individual services have become too 
dependent on one another. Having the entire military rely on an 
individual service as the sole provider of a given capability can 
introduce risks and decrease the efficiency of U.S. forces. One obvious 
example is the degradation of U.S. Army short range air defense 
(SHORAD) and an overreliance on increasingly scant air force 
interceptors to maintain air superiority. Competition among the 
services--for missions and for resources, for example--is the key to 
innovation. Beyond the advantage of having redundant tactical and 
operational tools at hand in the event one fails or proves to be easily 
countered, competition fosters a richer and more diverse discussion of 
the nature of war and serves as a check on the American propensity to 
rely too heavily on technological solutions to military problems. As 
much as the new administration needs to put more forces in the field 
and modernize weapons systems, its most important task may be to 
rebuild the service's institutional capacities that are essential for 
sustaining the breadth and depth of military leadership that global 
power demands.
    The Budget Control Act must no longer be the scapegoat. By 
attributing most or all of the current force's problems to 
sequestration and ignoring their historical context, policymakers 
wrongly assume that solutions are simple (e.g., higher defense toplines 
alone will solve the military's woes). The next National Defense 
Strategy will need to account for two compounding problems. First, the 
international situation is deteriorating. Second, our fiscal ability to 
support all instruments of national power is declining. Higher spending 
can alleviate the latter challenge, but new investments will need to be 
tied to clear strategic goals in order to address the former. We cannot 
repeat the mistakes of the early 2000s where billions were squandered 
on cancelled research and development programs that fielded little to 
nothing because they were not tied to the threats America faced.
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
      
    Investments must balance between the immediate needs of today, the 
medium term, and wars of the 2030s. To alleviate strain on the current 
force, it will need to grow. This expansion of capacity should be 
undertaken immediately and with currently available equipment and 
technology rather than forestalled in pursuit of tomorrow's super 
weapons. Overly investing in near-term readiness and speculative 
capabilities not only introduces a large amount of acquisition risk, it 
also creates a dangerous situation where adversaries know we are weak 
today and will be strong tomorrow. Facing this scenario, they would see 
that it's better to strike now than later. In this way, more investment 
in our military could worsen American security unless it is properly 
managed to alleviate any potential gap in American readiness to deter 
and, if necessary, defeat our foes. Policymakers must avoid a 
``barbell'' investment strategy that deemphasizes the medium-term needs 
of the 2020s.
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
      
           repairing and rebuilding the armed forces by 2023
    In my new report, Repair and Rebuild, I present a Future Years 
Defense Program (FYDP) highlighting the needs of our Armed Forces over 
the next five years in addition to the last official FYDP conducted by 
the Obama Administration in 2017. \2\ While that report contains my 
complete recommendations for a force sized for three theaters, the top 
five programmatic priorities emphasized in the report can be summarized 
as follows:
---------------------------------------------------------------------------
    \2\ Mackenzie Eaglen, Repair and Rebuild: Balancing New Military 
Spending for a Three-Theater Strategy, American Enterprise Institute, 
2017, http://www.aei.org/publication/repair-and-rebuild-balancing-new-
military-spending-for-a-three-theater-strategy/.

    1. Embrace stealth and sensor fusion en masse.
      <bullet>  Purchase an additional 316 F-35As above the 431 
aircraft planned over the FYDP, accelerate crucial F-22 upgrades, 
provide extra funding for the B-21 Raider, and expand that program of 
record beyond 100 bombers.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    2. Disperse power projection.
      <bullet>  Procure an additional 64 F-35Bs above the 102 planned, 
accelerate aviation-focused America-class production instead of 
developing a light carrier, expand KC-130J procurement, and buy five 
extra ESBs.

    3. Allow the Navy to focus on sea control.
      <bullet>  Free up destroyers and attack subs to focus on sea 
control while accelerating new large surface combatant development.
      <bullet>  Heavily invest in small surface combatants (with 
unmanned craft) to conduct lower-end naval missions.
      <bullet>  Expand ground-based ballistic missile defense capacity 
to lessen burden on Navy surface combatants.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    4. Build sustainable long-term fire support capacity.
      <bullet>  Move away from using expensive, high-demand assets 
(e.g. carriers, fourth-generation fighters, bombers) for fire support.
      <bullet>  Expand and upgrade Army tube and rocket artillery to 
improve organic fire support.
      <bullet>  Expand Reaper buy and procure two wings of light attack 
fighters for air support in permissive environments.

    5. Increase Army lethality.
      <bullet>  Upgrade Abrams, Bradley, Stryker, and Paladin at scale; 
ensure LRPF fields on time; rapidly invest in electronic warfare; and 
accelerate FVL helicopter replacements.
      <bullet>  Expand United States Army Europe presence to 
incorporate heavier units prepared to act as more than a tripwire in 
the event of hostilities with Russia and otherwise capable of boosting 
regional capabilities of partners through increased opportunities for 
training and exercises.
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
      

    Chairman McCain. Thank you.
    If you will allow me to interrupt, since a quorum is now 
present, I ask the committee to consider the nominations of 
John Rood to be Under Secretary of Defense for Policy, Randall 
Schriver to be Assistant Secretary of Defense for Asian and 
Pacific Affairs, and a list of 275 pending military 
nominations.
    All these nominations have been before the committee the 
required length of time.
    Is there a motion to favorably report these two civilian 
nominations and list?
    Senator Reed. So moved.
    Chairman McCain. Is there a second?
    All in favor, say aye.
    [Chorus of ayes.]
    The information referred to follows:

 Military Nominations Pending with the Senate Armed Services Committee 
 Which are Proposed for the Committee's Consideration on November 30, 
                                 2017.
     1.  In the Air Force there are 14 appointments to the grade of 
colonel (list begins with Dane V. Campbell) (Reference No. 951)

     2.  In the Army there is 1 appointment to the grade of major 
(Ashley R. Sellers) (Reference No. 956)

     3.  In the Army there is 1 appointment to the grade of major 
(Elias M. Chelala) (Reference No. 958)

     4.  In the Army there is 1 appointment to the grade of brigadier 
general (Douglas F. Stitt) (Reference No. 1116-2)

     5.  Capt. Michael E. Boyle, USN to be rear admiral (lower half) 
(Reference No. 1124)

     6.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Cathleen A. Labate) (Reference No. 1144)

     7.  In the Army there are 2 appointments to the grade of major 
(list begins with Rebecca J. Cooper) (Reference No. 1147)

     8.  RADM Lisa M. Franchetti, USN to be vice admiral and Commander, 
SIXTH Fleet/Commander, Task Force SIX/Commander, Striking and Support 
Forces NATO/Deputy Commander, US Naval Forces Europe/Deputy Commander, 
US Naval Forces Africa/Joint Force Maritime Component Commander Europe 
(Reference No. 1192)

     9.  BG Arthur E. Jackman, Jr., USAFR to be major general 
(Reference No. 1218)

    10.  BG Josef F. Schmid III, USAFR to be major general (Reference 
No. 1219)

    11.  In the Air Force Reserve there are 12 appointments to the 
grade of brigadier general (list begins with John M. Breazeale) 
(Reference No. 1222)

    12.  Col. Darlow G. Botha, Jr., ANG to be brigadier general 
(Reference No. 1225)

    13.  In the Air Force Reserve there are 2 appointments to the grade 
of brigadier general (list begins with Steven J. deMilliano) (Reference 
No. 1226)

    14.  In the Air Force Reserve there are 2 appointments to the grade 
of brigadier general (list begins with Michele K. LaMontagne) 
(Reference No. 1227)

    15.  In the Air Force Reserve there are 25 appointments to the 
grade of brigadier general (list begins with Travis K. Acheson) 
(Reference No. 1229)

    16.  In the Air Force Reserve there are 12 appointments to the 
grade of major general (list begins with Ondra L. Berry) (Reference No. 
1230)

    17.  In the Air Force Reserve there are 8 appointments to the grade 
of major general (list begins with George M. Degnon) (Reference No. 
1231)

    18.  In the Air Force Reserve there are 2 appointments to the grade 
of major general (list begins with Douglas A. Farnham) (Reference No. 
1232)

    19.  In the Air Force there are 69 appointments to the grade of 
major (list begins with Joseph Benjamin Ahlers) (Reference No. 1234)

    20.  In the Air Force there is 1 appointment to the grade of major 
(Erika R. Woodson) (Reference No. 1236)

    21.  In the Air Force there is 1 appointment to the grade of major 
(Michael S. Stroud) (Reference No. 1237)

    22.  In the Air Force there are 17 appointments to the grade of 
colonel (list begins with Lance A. Aiumopas) (Reference No. 1238)

    23.  In the Air Force Reserve there is 1 appointment to the grade 
of colonel (Robert Sarlay, Jr.) (Reference No. 1239)

    24.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Brantley J. Combs) (Reference No. 1240)

    25.  In the Army there are 2 appointments to the grade of major 
(list begins with Mark E. Query) (Reference No. 1241)

    26.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Victor A. Pachecofowler) (Reference No. 1242)

    27.  In the Army there is 1 appointment to the grade of colonel 
(James M. Brumit) (Reference No. 1243)

    28.  In the Air Force Reserve there are 88 appointments to the 
grade of colonel (list begins with Richard G. Adams) (Reference No. 
1253)

    29.  In the Army there is 1 appointment to the grade of colonel 
(Melvin J. Nickell) (Reference No. 1254)

    30.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Erica L. Herzog) (Reference No. 1255)

    31.  In the Army there is 1 appointment to the grade of colonel 
(Adam W. Vanek) (Reference No. 1256)

    32.  In the Army there is 1 appointment to the grade of major 
(Jason Park) (Reference No. 1257)

    33.  In the Army there is 1 appointment to the grade of major (John 
T. Huckabay) (Reference No. 1258)
_______________________________________________________________________
                                                                    
TOTAL: 275

    Chairman McCain. The motion carries.
    Dr. Karlin, you are up.

STATEMENT OF MARA E. KARLIN, Ph.D., ASSOCIATE PROFESSOR OF THE 
PRACTICE OF STRATEGIC STUDIES, JOHNS HOPKINS SCHOOL OF ADVANCED 
                     INTERNATIONAL STUDIES

    Dr. Karlin. Thank you, sir. Thank you, Chairman McCain and 
Ranking Member Reed and members of the committee. It is a real 
opportunity to appear before you today to discuss the National 
Defense Strategy [NDS].
    I have three points to make that cover the 2018 National 
Defense Strategy, how the committee can shape future 
strategies, and reconciling the last 15-plus years of war.
    The 2018 National Defense Strategy should prioritize 
preparing the future force for conflict with China and Russia 
while limiting the stressors of countering violent nonstate 
actors. To be sure, the U.S. military must be able to credibly 
confront challenges across the spectrum of conflict, including 
nuclear, high-end conventional, gray zone, and 
counterterrorism.
    While the United States military remains preeminent, the 
imbalance is worsening. China and Russia are making it harder 
for the United States to project power.
    Our military generally operates under two principles: 
fighting away games and maintaining unfair advantages. Both are 
growing harder.
    Steps like enhancing forward posture in Asia and Europe 
will have real operational benefits, as will investments in 
undersea; long-range strike; combat Air Force, particularly 
modernizing fourth-generation aircraft and balancing the 
portfolio more broadly; Counter Unmanned Autonomous Systems; 
short-range air defenses; and munitions.
    The U.S. military must lean forward to exploit the benefits 
of emerging technologies, particularly artificial intelligence 
and autonomy, but it must do so consonant with the American way 
of war. Technology is changing how the U.S. military fights, 
but not why it fights nor what it fights for.
    As you read the next NDS, I urge you to consider the 
following. Everybody, every service, every combatant command 
cannot be a winner, and a classified strategy should be clear 
about that tally.
    The committee and those of us involved in defense strategy 
and budgeting in recent years know sequestration's pernicious 
damage. We have a special responsibility to ensure it is not a 
partisan issue, but instead a bipartisan effort.
    Second, the committee can shape future national defense 
strategies in a few important ways regarding coherence, 
assessment, and roles and missions. Changing the name of the 
Quadrennial Defense Review to the National Defense Strategy was 
a crucial first step for coherence. It will mitigate the 
cacophony of guidance, which resulted in confusion over 
strategic direction.
    As a next step, the committee should consider codifying a 
vision of the department's hierarchy of strategic guidance 
documents, which includes a singular, overarching strategy 
broken into classified documents for force development and 
force employment.
    Legislating an annual assessment of the defense strategy 
was a critical step for this committee. Strategies will always 
be flawed. Recognizing in which ways they require adjustment is 
essential.
    As a next step, the committee should consider codifying who 
is involved in the assessment and how it is conducted to ensure 
a broad, deep, and meaningful review.
    The committee has, in its laudable exploration of 
Goldwater-Nichols, begun an important conversation about roles 
and missions. Broadening the chairman of the Joint Chiefs' role 
to become a global integrator, and striking the right balance 
between Defense Department, civilians, and military leaders in 
producing and implementing strategy, can have profound 
consequences for mil-mil and civil-mil relations.
    These issues require serious debate, consideration, and 
active congressional involvement.
    Finally, as the committee looks to the future, I urge you 
to consider the recent past. Simply put, we all must reconcile 
the inheritance of the last 15-plus years of war. The 
opportunity costs are profound. They include a force whose 
predominant experience has been countering terrorists and 
insurgents; frayed equipment; a readiness crisis; a bias for 
ground forces; muddled accountability; a disinterested American 
public; a nadir of civil-military relations; and, above all, 
neuralgia over the conflicts' loss of blood, treasure, and 
inconclusive results.
    I fear that all of our successors will look askance if we 
do not meaningfully examine this inheritance.
    Thank you.
    [The prepared statement of Dr. Karlin follows:]

                Prepared Statement by Mara Karlin, Ph.D.
    Chairman McCain, Ranking Member Reed, and Members of the Committee, 
thank you for this opportunity to appear before you today to discuss 
recommendations for a future National Defense Strategy. The Committee's 
leadership on this topic is essential, and I am grateful for the 
opportunity to share my expertise and assist with your mission.
    Today's global security landscape is littered with national 
security challenges spanning the continuum of conflict. I would 
characterize it as chaotic and competitive with power increasingly 
dynamic and distributed. The nature of national security challenges is 
diversifying considerably, and the technological landscape is evolving 
in ways that diminish traditional U.S. strengths. While the U.S. 
military generally operates under two key principles--fighting ``away'' 
games and maintaining unfair advantages--both are growing harder. Of 
course, domestic disarray works to the advantage of those who seek to 
harm America.
                           defense dilemmas:
    As the Defense Department pulls together the 2018 National Defense 
Strategy in an effort to outline the ambition and contours of the 
future U.S. military, it is wrestling with the following dilemmas, many 
of which will remain relevant for years to come:

    <bullet>  Conflict Spectrum:  The United States military must be 
able to credibly confront challenges across the spectrum of conflict, 
including nuclear, high-end conventional, gray zone, and counter-
terrorism. These potential challengers include China, Russia, North 
Korea, Iran, and violent non-state actors (e.g.; ISIL 2.0; Hizballah). 
It should prioritize countering the former while limiting the stressors 
of the latter.
    <bullet>  Regional Focus:  The Asia-Pacific and Europe are the 
priority theaters for the United States military as it competes with 
rivals; however, the United States cannot remain a global power if it 
dismisses other regions. China is the long-term challenge for the 
United States given its consequential military modernization over two 
decades. While the U.S. military remains preeminent, the imbalance is 
worsening. China is making it harder for the United States military to 
project power across Asia, and neither time nor geography work to the 
United States advantage. \1\ Russia is a medium-term challenge for the 
United States. Moscow's use of force in Europe and the Middle East has 
been rotten, but more worrying is its military's modernization over the 
last decade and its dangerous doctrine euphemistically known as 
``escalate to deescalate.'' In reality, its doctrine is ``escalate to 
escalate'' as no clear-eyed observer would consider limited nuclear use 
de-escalatory. Moreover, the Russian way of war considers society and 
military fair game, blurs the line between conflict and peace, and 
wields cyber tools to sow doubt and faith in United States 
institutions. In the wake of the 2011 uprisings, the Middle East will 
remain fragile for decades to come. The counter-terrorism fight there 
and in Africa will continue, degrading readiness. Containing the 
regional chaos when and where possible, and limiting the toll it takes 
on the military, should be a priority.
---------------------------------------------------------------------------
    \1\ RAND's Scorecards is the preeminent unclassified study of 
Chinese military modernization. Heginbotham, Eric, et. al. The United 
States-China Military Scorecard: Forces, Geography, and the Evolving 
Balance of Power, 1996-2017. Santa Monica, CA: RAND Corporation, 2015. 
https://www.rand.org/pubs/research--reports/RR392.html.
---------------------------------------------------------------------------
    <bullet>  Today vs. Tomorrow:  The U.S. military must be able to 
counter near-term threats and exert U.S. presence globally while also 
preserving readiness and modernizing the future force to effectively 
fight and win future wars. It should prioritize the latter.
    <bullet>  Nuclear vs. Conventional Investments:  The U.S. military 
must maintain a credible nuclear deterrent while not allowing it to 
overwhelm investment in conventional capabilities. Nuclear weapons must 
not be hived off in budget, strategy, or future force discussions; 
trade space between the nuclear and conventional portfolios requires 
meaningful adjudication.
    <bullet>  Reliance on Allies/Partners:  Allies and partners are the 
United States' comparative global advantage. The U.S. military will 
always fight alongside allies and key partners; however, some will be 
more capable than others and the United States will perennially face an 
expectations mismatch between our needs and capabilities, and theirs.
    <bullet>  Inheritance from 15+ Years of War: The U.S. military must 
reconcile all it has inherited from the longest period of war in United 
States history, particularly given the inconclusive nature of the 
conflicts in Iraq and Afghanistan. The opportunity costs of this 
inheritance are profound. They include a force whose predominant 
experience has been countering terrorists and insurgents; frayed 
equipment; a readiness crisis; a bias for ground forces; muddled 
accountability, a disinterested American public, a nadir of civil-
military relations; and, above all, neuralgia over the conflicts' loss 
of blood, treasure, and limited results.

    There is no binary answer to these dilemmas. Instead, the National 
Defense Strategy (NDS) will invariably bet and hedge across them. I 
urge the Committee to review the National Defense Strategy with an eye 
toward efforts to make meaningful, not marginal, change. Everybody--
every service, every combatant command--cannot be a winner, and the 
classified version of the NDS should be clear about that tally. The 
U.S. military is facing serious modernization shortfalls that will only 
grow uglier and it has spent 15+ years in conflicts that look 
dramatically different from the future. It needs to catch up--fast. \2\
---------------------------------------------------------------------------
    \2\ Excerpted from author's quote in Tony Bertuca, ``Pentagon team 
working National Defense Strategy sizing up return to `two-war' 
paradigm,'' Inside Defense, August 30, 2017.
---------------------------------------------------------------------------
    To be sure, the resource picture has exacerbated these dilemmas. 
This Committee and those of us involved in defense strategy and 
budgeting in recent years know the pernicious damage that sequestration 
has done. We have a special responsibility to ensure it is not a 
partisan issue, but instead a bipartisan effort to rebuild the nation's 
defenses in a prudent and practical manner.
                force sizing and shaping considerations
    The Committee should engage in a classified dialogue with the 
Department to ensure it fully understands the future force's abilities. 
The Committee should consider the following:

    <bullet>  Scenario Selection.  While the scenarios used to size and 
shape the force are illustrative--not exhaustive--their contours are 
crucial. They should align with U.S. national security interests and an 
appropriate level of American strategic ambition, incorporating varying 
challenges across the conflict spectrum while balancing between 
likelihood and consequence.
    <bullet>  Scenario Pairing: The U.S. military must be able to fight 
and win multiple conflicts. Anything short of that is reckless. A force 
that can only wage one conflict is effectively a zero-conflict force 
since employing it would require the president to preclude any other 
meaningful global engagement. In considering scenario pairing, their 
separation in time and distance should be realistic (not least because 
the theory behind preparing for simultaneous conflicts hasn't borne 
fruit: an opportunistic aggressor has not taken advantage of U.S. 
distraction to attack--indeed, the period since 2001 would have been an 
ideal opportunity).
    <bullet>  Scenario Execution:  Scenario analysis must focus on how 
the military will fight and win a conflict--jointly. Risk should be 
delineated as specifically as possible, and underscore when and where 
the force will face ``heart burn'' (an uglier conflict with higher 
losses in blood and treasure) and ``heart attack'' (losing the 
conflict).
    <bullet>  Posture:  The United States--thankfully--is generally far 
from the conflicts it wages. Maintaining this distance requires the 
U.S. military to be much closer, however. Forward posture enables a 
rapid response when conflict erupts, can deter rivals or adversaries 
from launching a conflict, and magnifies the force's capacity, 
capability, and readiness. In the near-term, modest improvements in 
forward posture in Asia and Europe will have significant operational 
benefits. The United States military must be able to get anywhere 
around the globe at any time, which in these regions increasingly 
involves poking holes in Chinese and Russian attempts to impede United 
States power projection.
    <bullet>  Investments:  Technology is changing how the U.S. 
military fights, but not why it fights nor what it fights for. The U.S. 
military must lean forward to exploit the benefits of emerging 
technologies, particularly artificial intelligence and autonomy, but it 
must do so responsibly by developing a shared understanding of its 
prospects and how to field such systems consonant with the American way 
of war. Key areas of investment for the future force should include 
undersea, long-range strike, combat air force (particularly modernizing 
4th generation aircraft and balancing the portfolio more broadly), 
counter-unmanned autonomous systems, short range air defenses, 
munitions, cyber resilience, and technology that facilitates operations 
in contested environments with degraded communications.
              strategic guidance coherence and assessment
    I commend the Committee for changing the name of the Quadrennial 
Defense Review to the National Defense Strategy, thereby making clear 
to the entire national security apparatus that it represents the 
governing guidance for the Defense Department. This crucial step will 
mitigate the cacophony of strategies across the Department's guidance 
landscape, which has resulted in confusion over strategic direction, 
cherry-picking for parochial agendas, and discordant dialogue on the 
strategy's implementation and efficacy. \3\ As a next step, the 
Committee should consider codifying a vision of the Department's 
hierarchy of strategic guidance documents along with which entity 
should lead them. That framework should include a singular overarching 
strategy broken into classified documents for force development and 
force employment.
---------------------------------------------------------------------------
    \3\ Mara Karlin and Christopher Skaluba, ``Strategic Guidance for 
Countering the Proliferation of Strategic Guidance,'' War on the Rocks, 
July 20, 2017, https://warontherocks.com/2017/07/strategic-guidance-
for-counteringthe-proliferation-of-strategic-guidance/.
---------------------------------------------------------------------------
    I also commend the Committee for legislating a new requirement for 
the secretary of defense to annually assess the strategy and its 
implementation. Strategies will always be flawed; recognizing in which 
ways they require adjustment is crucial. As a next step, the Committee 
should consider codifying who is involved in this assessment and how it 
is conducted to ensure a broad, deep, and meaningful review. I 
recommend an inclusive approach at the senior level, potentially using 
the deputy secretary of defense and vice chairman of the joint chiefs' 
regular forum with the Department's leadership (the deputy's management 
action group). The assessment should be classified with unclassified 
portions released at the secretary of defense's discretion, and should 
diagnose the current state of affairs (and how it differs from earlier 
expectations), and outline in what ways the Department's trajectory 
will now shift.
                           roles and missions
    The Committee has, in its laudable exploration of Goldwater-
Nichols, begun an important conversation about roles and missions. It 
should continue to do so, particularly as it takes steps to enhance the 
chairman of the joint chiefs of staff's role. Broadening his role to 
include global integration can have profound consequences for mil-mil 
and civil-mil relations. Similarly, the increasing resonance of the 
term ``best military advice'' across the military merits reflection 
about how its continued use is influencing defense strategy development 
and civil-mil relations. \4\ These issues require serious debate and 
consideration, and active Congressional involvement.
---------------------------------------------------------------------------
    \4\ James Golby and Mara Karlin, ``Why `Best Military Advice' is 
Bad for the Military--and Worse for Civilians,'' Orbis, Winter 2018 
(forthcoming).
---------------------------------------------------------------------------
                         questions to consider
    As the Committee's Members review the next NDS and consider future 
iterations, I urge you to consider the following questions:

      1)  What are the primary areas of debate and disagreement in 
pulling together the NDS? Who are the winners and losers in the NDS?

      2)  In what ways does the NDS differ from the chairman of the 
joint chiefs' National Military Strategy, and why? What's the right 
balance between Defense Department civilians and military leaders in 
producing and implementing strategy?

      3)  How does the Department plan to implement the NDS? How does 
the Department plan to fulfill the Committee's annual requirement to 
assess it and make course corrections as necessary?

      4)  In what ways does the NDS influence roles and missions?

      5)  How is the Department assessing the last 15+ years of 
conflict and their impact on the force, including its biases, 
structures, and processes?

    Chairman McCain. Thank you.
    General?

 STATEMENT OF LIEUTENANT GENERAL THOMAS W. SPOEHR, U.S. ARMY, 
  RET., DIRECTOR OF THE CENTER FOR NATIONAL DEFENSE, HERITAGE 
                           FOUNDATION

    General Spoehr. Good morning, Mr. Chairman, Ranking Member 
Reed, distinguished members of the committee. Thank you for the 
opportunity.
    So, is the Pentagon on the cusp of producing a real defense 
strategy, or will the forthcoming National Defense Strategy be 
attractive, but no more than another coffee table book to put 
in your office?
    A real defense strategy----
    Chairman McCain. How does it look?
    General Spoehr. Based on history, sir, it is not looking 
good. I am optimistic about the current leadership, and so I 
would like to remain optimistic at this point.
    A real defense strategy will provide clear priorities, 
identify America's competitive advantages and how to capitalize 
them, and how to deal with the world and the enemies it offers 
as it is.
    Since the 2014 Russian invasion of Ukraine and the Chinese 
militarization of islands in the South China Sea starting in 
2015, America has been operating without a real defense 
strategy, thus the need for a new defense strategy could not be 
more acute. But previous efforts have had decidedly mixed 
results.
    So what would contribute to the creation of a seminal 
defense strategy that would guide our efforts for years to 
come? Above all else, the strategy must lay out clear choices. 
Strategies that articulate that we are going to do this and not 
do that. U.S. defense strategies often fail by endeavoring to 
be completely inclusive of all parties and valuing their 
contributions equally.
    Assuming the Congress succeeds in appropriating additional, 
desperately needed defense funding in 2018 and beyond, the 
Pentagon will still not be able to afford everything on its 
vast wish list, as they must contend with crushing needs for 
facility repairs and maintenance backlogs. Some capabilities, 
some organizations, and some elements of infrastructure are not 
as important as others, and a strategy should not pull back 
from identifying those.
    Turning to the contents of the strategy, as a prisoner of 
my education at the Army War College, we like to talk about 
strategy in terms of ends, ways, and means, so I will briefly 
lay out some thoughts on those.
    First, the ends, or the objectives. The strategy should 
flow from a clear and understandable goal that the military 
needs to be ready and able to defend America's interests with 
decisive and overwhelming military strength.
    The only logical and easily understood strategic construct 
for the United States is to maintain the capability to engage 
and win decisively in two major regional contingencies near 
simultaneously. The basis for that construct is, fundamentally, 
deterrence. If the adversaries know that America can engage in 
two major fights with confidence, they will be less inclined to 
take advantage of a United States committed elsewhere.
    Now I would like to look at the ways, or the actions the 
strategy should describe.
    First, the strategy should call for more forward presence 
for U.S. forces. The end of the Cold War led to massive 
reductions in forward presence, but forward-stationed forces 
demonstrate a resolve that no other action can make.
    Second within the ways, the strategy should not propose 
approaches that contradict the very fundamental nature of war. 
The Obama Administration attempted this when they wishfully 
prescribed in the 2014 Quadrennial Defense Review that our 
forces will no longer be sized to conduct large-scale, 
prolonged stability operations. United States history not 
confined to Iraq and Afghanistan reflects that wars have a way 
of drawing American forces into prolonged stability operations.
    Simply put, it is foolhardy not to prepare and size our 
forces for a type of operation which history tells us American 
Presidents have repeatedly seen fit to engage the military, 
even when it is not specifically prepared for it.
    Third, to support the objective to counter terrorist and 
violent extremist threats in the Middle East and elsewhere, 
America should maintain certain lower end capabilities, such as 
non-fifth-generation attack aircraft and advise-and-assist 
capabilities, such as the Army's new Security Force Assistance 
Brigades, which can allow us to conduct these operations at a 
much lower overall cost.
    Then finally within the ways, you should be able to see the 
key competitive advantages that the United States brings to 
win. America's unmatched ability to fight as a joint team 
probably would rank as one of those. A well-nourished network 
of alliances and partners would be another. I, personally, hope 
not to see artificial intelligence, swarms of mini-drones, 
robots, railguns, and directed energy weapons proposed as the 
keys to our military's future success. That has become very 
fashionable in Washington, DC, but these advantages are 
transitory, and they cannot be relied upon to provide a long-
term, enduring advantage to the United States.
    So I have talked about the ends and the ways. I would like 
to close with the means, or the resources, if you will. Nothing 
will doom a strategy quicker than an imbalance between the 
ends, ways, and the means. That is exactly where we find 
ourselves today, with the smallest military we have ever had in 
75 years, equipped with rapidly aging weapons, and employed at 
a very high operational pace, endeavoring to satisfy 
undiminished global defense requirements.
    Tragically, due to overuse, underfunding, and inattention, 
American military capabilities have now markedly deteriorated 
to a dangerously low level.
    For example, the Air Force is now short over 1,000 fighter 
pilots. Part of the reason for that crisis is dissatisfaction, 
stemming from the fact that fighter pilots now fly less sorties 
per week than they did during the hollow years of the Carter 
Administration.
    I draw your attention to the chart that should be attached 
to my testimony. It shows the aircraft sorties per month 
between now and the Carter Administration. Recent pilot 
interviews with over 50 current fighter pilots confirm this 
trend continues to today.
    Recent tragic ship mishaps--why they are not flying more, 
sir?
    Chairman McCain. Why they are not happy?
    General Spoehr. Most of the reason is they are not doing 
the job they signed up to do. They came in to fly. They love to 
fly. Now they are being told they will fly, but two times a 
week. The rest of the week is taken up with administrative 
duties, like the safety officer or the morale officer for their 
squadron. That is not what they want to do.
    Chairman McCain. So the answer is not money. It is ability 
to fly.
    General Spoehr. You are right, sir. But, of course, in some 
cases, money helps the ability to fly.
    Chairman McCain. Thank you.
    General Spoehr. Yes, sir.
    Recent ship collisions, aircraft mishaps, submarine 
maintenance backlogs, and an anemic Army modernization program 
all reflect the results of what happens when a military tries 
to accomplish global objectives with only a fraction of the 
necessary resources.
    Unfortunately, there are no shortcuts to rebuild the 
military. It took us years to get in this position, and it is 
going to take us years to get out of it.
    I draw your attention to a second handout I provided, which 
reflects Heritage research on the number of forces needed to 
deal with two major regional contingencies compared to how the 
military stands today. You will note, although Heritage 
assesses that the Army needs 50 active brigade combat teams, 
they only have 31. Of those 31, only 10 are ready, and out of 
those 10, only 3 are ready to fight tonight. That is a serious 
problem. It reflects a significant risk to America and its 
interests.
    My most important point that I would like to stress is the 
strategy should be budget-informed and not budget-constrained. 
There is a big difference.
    The strategy should take a realistic look at the national 
security threats facing the country and propose realistic 
solutions to those threats. While acknowledging that the U.S. 
cannot dedicate an infinite amount of resources to national 
defense, the strategy should not fall victim to accepting the 
views of the Office of Management and Budget or others as to 
what can or should be spent on national defense.
    Already, some advance the notion that because of structural 
economic problems, the United States is unable to spend more on 
defense even though spending on the Armed Forces stands at a 
historic low percentage of the gross domestic product, 3.3 
percent, and a historic low percentage of the Federal budget at 
16 percent.
    How many times, ladies and gentlemen, have you heard that 
the United States spends more than the next six or eight 
countries combined? Such arguments, however, fall apart very 
quickly upon examination. No other country in the world needs 
to accomplish as much as we do with our military. Second, a 
huge amount of the difference in defense spending can be traced 
down to purchasing power parity and other economic factors, 
such as it only costs China about $300 million to build a ship 
that in the United States costs over $1.5 billion.
    Notwithstanding those facts, national interests and 
objectives must always drive America's military requirements 
and not cold financial calculations.
    In summary, there is room for optimism about the 
opportunity the new defense strategy affords. Authoritatively 
defining how the U.S. military will protect America's interests 
and methods to be used is something that has not been done in 
recent memory. Done correctly, it has a great chance of having 
put the ends, ways, and means of our strategy back in balance.
    Thank you, sir.
    [The prepared statement of General Spoehr follows:]

       Prepared Statement by Lieutenant General Thomas W. Spoehr
    Lieutenant General Thomas Spoehr, U.S. Army, retired, served for 36 
years in the Army until 2016. As the Director for the Center for 
National Defense at The Heritage Foundation, Spoehr leads a team of 
defense experts responsible for researching and forming policy 
recommendations to promote a strong and enduring U.S. national defense. 
As part of their efforts, they publish the annual authoritative Index 
of U.S. Military Strength providing a comprehensive assessment of U.S. 
military power and are currently engaged in the Rebuilding America's 
Military Project (RAMP), designed to inform decisions regarding the 
future direction of the U.S. military. While in uniform, Spoehr was 
responsible for forming recommendations for the Army's annual fiscal 
program, equipment investments and strategies, and the Army's business 
strategy. In those roles, he participated in several Quadrennial 
Defense Reviews, the development of the DOD's Defense Strategic 
Guidance, and other strategies. In 2011 Spoehr served as Deputy 
Commanding General-Support for United States Forces Iraq with 
responsibilities for transition and logistics. The following is adapted 
from an October 3, 2017, article published in War on the Rocks, titled: 
``Rules for Getting Defense Strategy Right.''
    Thank you for the opportunity to testify before this committee on 
this important subject.
    So, is the Pentagon on the cusp of generating a real defense 
strategy? Or will the forthcoming National Defense Strategy (NDS) be 
like so many strategic documents of the past: attractive, but of little 
intrinsic value, like coffee-table books?
    A real defense strategy would provide clear priorities, identify 
America's competitive advantages and how to capitalize on them, and 
deal with the world--and the enemies it offers as it is. Since the 
August 2014 Russian invasion of the Ukraine, and the Chinese 
militarization of man-made islands in the South China Sea in 2015-2016, 
the United States has been operating without a relevant defense 
strategy. Thus, the need for a new NDS could not be more acute, but 
previous efforts have had decidedly mixed results. Will this one 
succeed where others have failed? We are about to find out.
    Done correctly, the NDS can put the United States on a sound 
strategic footing. But a couple of challenges loom.
    First, the Pentagon is writing the NDS in parallel with the White 
House's development of the National Security Strategy (NSS). Even 
though the writing teams are closely collaborating, it would be better 
for them to be tackled sequentially.
    The NSS should provide the framework for the NDS with sufficient 
intervening time for the NSS to be digested and analyzed. Congress 
should ensure that future national security and defense strategies are 
separated by time in their development.
    Second, the Pentagon's senior policy leadership team is only just 
starting to arrive, with the Principal Deputy to the Under Secretary 
for Policy only arriving in the last couple of weeks and the appointed 
Under Secretary and relevant Assistant Secretary still not in place. 
There is a capable team in place developing the strategy, but their 
leaders missed the opportunity to weigh in on the strategy.
    So, what would contribute to the creation of a seminal defense 
strategy that can guide our defense efforts for years to come?
    Above all else, the NDS must lay out clear choices. As Harvard 
Business School professor Michael Porter puts it: ``Strategy is about 
choices.'' Strategies articulate that we are going to ``do this, and 
not this.'' American defense strategies often fail by endeavoring to be 
completely inclusive of all parties and valuing their contributions 
equally. The 2014 Quadrennial Defense Review (QDR) fell in that 
category. Every ``tribe'' successfully inserted their organizations as 
a high priority into the document, which consequently was irrelevant 
the moment it was signed.
    Assuming that Congress succeeds in appropriating additional 
desperately needed defense funding in 2018 and beyond, the Pentagon 
still will not be able to afford everything on its vast ``wish lists,'' 
as the military must also contend with crushing needs for facility 
repairs and maintenance backlogs. Some capabilities, organizations, and 
elements of infrastructure are not as important as others, and the NDS 
should not pull back from identifying those that are less critical for 
success.
    Turning to the contents of the NDS, I am a prisoner of my education 
at the Army War College which instills that good strategy is comprised 
of ends, ways, and means, each linked and in balance. Just to be clear, 
the ``Ends'' represent the objectives you seek to accomplish, ``Ways'' 
the actions you will employ in the pursuit of the objectives, and 
``Means'' the resources you require to execute the strategy. I will 
therefore organize my comments in that manner.
                     first, the ends or objectives
    The NDS should flow from a clear and understandable goal: The U.S. 
military needs to be ready and able to defend America's interests with 
decisive and overwhelming military strength.
    The only logical and easily understood strategic construct for the 
United States is to maintain the capability to engage and win 
decisively in two major regional conflicts near simultaneously. 
America's force-sizing construct has changed over time. During the peak 
of the Cold War, the United States sought the ability to fight two and 
a half wars simultaneously against the Soviet Union, China, and another 
smaller adversary. Successive Administrations have modified this 
construct based on their assessments of threats, national interests, 
priorities, and perceptions of available resources. The real basis for 
the two-war construct is deterrence. If adversaries know that America 
can engage in two major fights with confidence, they will be less 
inclined to take advantage of the United States or an ally committed 
elsewhere.
    Fortunately, the United States need not size its forces to take on 
an adversary the size of the Soviet Union but instead a smaller, albeit 
still very dangerous and capable, Russia. The bad news is that the 
United States also needs to stand ready to deter and defeat China, 
which is making massive investments in its military forces and has 
chosen belligerence in Asia.
    The NDS must not overlook the need to continue to remain engaged to 
counter terrorist and violent extremist threats in the Middle East, 
Africa, and South and Southeast Asia, as well as confront rogue regimes 
such as North Korea and Iran.
  when considering the ways, or the actions and methods to be employed
    First, the NDS should call for more forward presence by U.S. 
forces. The end of the Cold War led to massive reductions in the United 
States military posture in Europe and elsewhere. These reductions were 
not based on an empirical or strategic review of U.S. force 
requirements, but rather on two factors: the opportunity to save money 
and the politically less contentious choice to close overseas military 
installations, not ones at home. Then-European Command Commander 
General Philip Breedlove testified as much in 2015: ``[P]ermanently 
stationed forces are a force multiplier that rotational deployments can 
never match.'' If our goal is to deter war, we must demonstrate both 
our will and capability. Forward stationed forces demonstrate both to 
the degree that no other action can match. U.S. forces stationed abroad 
should be configured, trained, and equipped to provide a real, versus 
symbolic, warfighting capability.
    Secondly, the NDS should not propose approaches that contradict the 
very nature of war. The Obama Administration attempted this when it 
wishfully prescribed in the 2014 QDR that ``our forces will no longer 
be sized to conduct large-scale prolonged stability operations.'' 
United States history, not confined to Iraq and Afghanistan, reflects 
the way wars have a way of drawing American forces into prolonged 
stability operations. Critics correctly argue that some of these 
stability operations were conducted by choice and that America should 
be more judicious in deciding whether to enter into future conflicts 
with the potential for stability operations. While appealing, such 
reasoned arguments ignore the reality that modern conflict usually 
presents either gradually, like Vietnam, or as crisis, such as Saddam's 
invasion of Kuwait, and in neither case allowing for extended 
deliberation of questions like ``How does this end?''
    To put it simply, it is foolhardy not to prepare or size our forces 
for a type of operation which history tells us American presidents have 
repeatedly seen fit to engage the military, even when not specifically 
prepared for it.
    Third, to support the objective to counter terrorist and violent 
extremist elements in the Middle East and elsewhere, the United States 
should maintain certain ``low-end'' capabilities such as non-fifth 
generation attack aircraft and Advise and Assist capabilities such as 
the Army's new Security Force Assistance Brigades (SFAB) in order to 
conduct these type operations at lower cost.
    Finally, within the strategy, Washington should be able to see the 
key competitive advantages that the United States intends to employ to 
win. America's unmatched ability to fight as a joint team certainly 
would rank as one. A strong and well-nourished network of alliances and 
partners would certainly be another. I hope not to see artificial 
intelligence, swarms of drones, robots, railguns, and directed energy 
weapons proposed as the keys to our military's future success--as has 
become fashionable--because the advantages those and other technologies 
convey are transitory. They are important, but are not key U.S. 
advantages for the long haul.
           the means must be in balance to the ends and ways
    Nothing will doom a strategy faster than an imbalance between the 
ends, ways, and means. This is the situation we find ourselves in 
today, with the smallest military we have had in seventy-five years, 
equipped with rapidly aging weapons, and employed at a very high 
operational pace endeavoring to satisfy our global defense objectives.
    The NDS should chart the path to the development and maintenance of 
a strong military with the ability to dominate likely opponents in all 
domains: land, air, sea, space, and cyber. Tragically, due to overuse, 
underfunding, and inattention, American military capabilities have now 
markedly deteriorated to a dangerously low level. Fighter pilots now 
fly less sorties per week than they did during the ``hollow'' years of 
the Carter Administration. Recent tragic ship collisions, aircraft 
mishaps, fighter pilot shortages, and reports on dilapidated shipyards 
show what happens when a military tries to accomplish global objectives 
with only a fraction of the necessary resources.
    The NDS should acknowledge the growing gap between the military's 
needs and what the nation has seen fit to resource. There are no 
shortcuts to accomplish the rebuilding that is now necessary. The NDS 
should acknowledge the true state of the military as it relates to the 
broad requirements of protecting our national interests.
    In that regard, it is critical that the NDS should be budget-
informed, not budget-constrained. There is a big difference. The 
strategy should take a realistic view of the national security threats 
facing the country and propose realistic ways and means to deter and 
defeat those threats. While acknowledging the United States cannot 
dedicate an infinite amount of resources to national defense, the 
strategy should not fall victim to the trap of accepting the Office of 
Management and Budget's views as the upper limit for what the country 
should or can spend on its defense.
    Already some seek to advance the notion that because of our 
structural economic problems the United States will be unable to 
increase defense spending, even though the spending on its armed forces 
stands at a historically low percentage of both gross domestic product 
(3.3 percent) and overall federal spending (16 percent). Skeptics 
employ superficial spending comparisons between nations to argue the 
United States already spends enough on defense.
    How many times, for example, have you heard that the United States 
spends more on its military than the next seven or eight countries 
combined? You might take from that observation that Washington is 
spending too much hard-earned taxpayer money on a bloated military, but 
you would be wrong. Such arguments fall apart quickly on examination. 
First, there is no other nation in the world that needs to accomplish 
as much with its military as the United States. Washington depends on a 
globally deployed force that upholds the pillars of the international 
order by defending access to the commons, protecting trade routes (that 
benefit the American people more than anyone else), and deterring those 
who seek to disrupt peace and security. Therefore, the U.S. military 
must be superior everywhere we are challenged. Second, some of the 
difference in spending among nations can be traced to purchasing power 
parity. For example, a ship that costs $1.2 billion to produce in the 
United States may cost only $300 million in China. Notwithstanding 
these factors, national interests and objectives must drive America's 
military requirements, not cold financial calculations.
    The NDS should find the balance between identifying the resources 
that are required and acknowledging that tough resourcing choices are 
still inevitable.
                                summary
    It is a military maxim that nothing happens until someone is told 
to do something. The NDS should therefore be directive, not just 
descriptive. Strategic objectives should lend themselves to tracking, 
and appropriate individuals should be held accountable. For example, if 
one objective is to increase readiness, the strategy should specify how 
much of a gain, by when, and who is responsible.
    When Congress created the requirement for the NDS, it specified 
that it should be classified, with an unclassified summary. That 
direction is liberating, as the NDS can be more narrowly focused than 
if it were forced to serve as both strategy and public relations tool. 
Hopefully, the Pentagon embraces that aspect.
    There is room for optimism about the opportunity the NDS affords. 
Authoritatively defining how the U.S. military will protect America's 
interests and the methods to be employed is something that has not been 
done in recent memory. Done correctly, it has a great chance of helping 
put the military back on a path to being a formidable force for the 
foreseeable future.

    Chairman McCain. Thank you.
    Mr. Ochmanek?

    STATEMENT OF DAVID A. OCHMANEK, SENIOR DEFENSE RESEARCH 
                   ANALYST, RAND CORPORATION

    Mr. Ochmanek. Thank you, Mr. Chairman, Ranking Member Reed. 
I appreciate the opportunity to share with you insights about 
what my colleagues and I at RAND have been learning from our 
analyses and gaming.
    DOD's development of a new defense strategy is an 
opportunity to reverse adverse trends in the national security 
environment and to develop a plan of action to reverse them. 
But even a perfectly formulated strategy and plan will do 
little to ameliorate our problems unless the department is 
given more resources soon and on a sustained and predictable 
basis.
    Put simply, our forces today, and for some time, have been 
given too little money with which to prepare for the missions 
assigned to them.
    You were all here when Chairman Martin Dempsey 4 years ago 
testified on his views of the Quadrennial Defense Review from 
2014. This is what he said: In the next 10 years, I expect the 
risk of interstate conflict in East Asia to rise, the 
vulnerability of our platforms and basing to increase, our 
technology to erode, instability to persist in the Middle East, 
and threats posed by violent extremist organizations to endure.
    That was not a very optimistic view of the future, but that 
was in January of 2014, before Russia had invaded Ukraine, 
before the Islamic State of Iraq and Syria (ISIS) had overrun 
large parts of Syria and Iraq, and before it was decided that 
we were going to leave large contingents of United States 
combat forces in Afghanistan.
    So we were on the ragged edge in January 2014. The security 
environment has deteriorated since then. Yet our resources are 
still constrained by the Budget Control Act of 2011.
    It should come as no surprise that, again and again, when 
we run war games against China and Russia, United States forces 
lack the capabilities they need to win. That is where we are 
today.
    Chairman McCain. The gap is widening.
    Mr. Ochmanek. The gap is widening, without question.
    Your invitation letter to this hearing asked us to provide 
views on the new force-planning construct. That is easily done.
    Top priority should be given to ensuring that United States 
forces have the capability to defeat any single adversary, 
including Russia and China. That probably sounds obvious, but 
it is not actually what we are doing today. We do not set that 
as a priority.
    As resources permit, we should also have the capacity to 
defeat a second adversary elsewhere. But pretending that you 
can spread the peanut butter across all of these challenges and 
have an adequately modernized force for the future is, as we 
have seen, an illusion.
    Again, the hard part, and the part that in the end will 
determine the success or failure of our defense strategy and 
program, will be generating the money needed to build a force 
that can meet these requirements, and then applying those 
resources in ways that do the most to move the needle against 
our most capable adversaries.
    The challenges that our adversaries pose are serious, but 
they are not intractable. Just as our gaming shows that we lack 
important capabilities with the programmed force, it also shows 
that we have real opportunities to change that, not through 
investments in highly exotic things like artificial 
intelligence and robots, but here-and-now weapons that are 
either available for purchase or very far along in the 
development process. Let me give you some examples.
    So to counter the anti-access/area denial threat, our 
forces really need to be able to do two things. One, from the 
outset of a war, reach into these contested land, maritime, and 
air areas and kill things. Right? Kill the amphibious fleet 
that could be invading Taiwan or the 30 battalion tactical 
groups that could be coming from Russia into the Baltic States.
    We have options to do that. The Long-Range Anti-Ship 
Missile is one. Guided anti-armor weapons like the Sensor Fuzed 
Weapon, which existed 20 years ago but we are only buying in 
very small numbers, is another way to, again, move that needle.
    Two, we need to strengthen our military posture in key 
theaters. I agree with what the general said. You cannot fight 
Russia and China with a purely expeditionary posture. You need 
more combat power for it, particularly heavy armored forces on 
NATO's eastern flank, but also stocks of advanced munitions, 
mature command-and-control and communications infrastructures, 
and more survivable bases.
    Our bases could be subject to attack by hundreds of 
accurate ballistic and cruise missiles. We have techniques and 
investment priorities to address those threats, but we have not 
had the resources to actually put them into the field.
    Number three is improve capabilities to rapidly suppress 
and destroy the enemy's air defenses. No one wants to fight in 
a battlefield where you do not have air superiority. Our forces 
in our games against Russia and China do not have that in the 
opening phases of these wars, and we need to reinvest in ways 
to kill the most sophisticated surface-to-air missiles, things 
we lack today.
    Finally, our forces have to be equipped and trained to 
enable them to win the fight for information superiority. China 
and Russia are investing heavily in capabilities that can 
improve their understanding of the dynamic battlespace and to 
deny us that understanding. Our forces have to have more 
survivable sensor platforms, communication links, cyber 
defenses, and cyber offensive systems.
    Again, plenty of options exist for meeting these needs. It 
is a question of investment.
    The good news is that, for the most part, the additions to 
the defense program that are called for are not major platforms 
or new force structures, and they are not exotic, futuristic 
Third Offset technologies.
    The greatest leverage comes from things like advanced 
munitions; more robust enablers, such as intelligence, 
surveillance and reconnaissance (ISR) systems and communication 
links; posture, which is about where we place our assets and 
how survivable our base infrastructures are. These sorts of 
things tend to cost a lot less than major platforms and 
increases in force structure.
    To close, I believe we have it within our means, 
technically, operationally, and financially, to field forces 
that are capable of confronting even our most capable 
adversaries with the prospect of defeat, if they choose 
aggression. This is the gold standard of deterrence, and it is 
the standard to which we should aspire.
    Thank you for the opportunity to testify and I look forward 
to answering your questions.
    [The prepared statement of Mr. Ochmanek follows:]

   Prepared Statement by David Ochmanek \1\, The RAND Corporation \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of the RAND Corporation or any of the sponsors of its research.
    \2\ The RAND Corporation is a research organization that develops 
solutions to public policy challenges to help make communities 
throughout the world safer and more secure, healthier and more 
prosperous. RAND is nonprofit, nonpartisan, and committed to the public 
interest.
---------------------------------------------------------------------------
    Good morning Chairman McCain, Ranking Member Reed, members of the 
committee, and staff. I appreciate the opportunity to share with you 
insights that my colleagues and I have gained from our analyses of 
emerging threats to U.S. military operations. Nine months ago, I had 
the honor of appearing before this committee to testify on the state of 
the U.S. armed forces' ability to counter threats posed by the nation's 
adversaries. On that occasion, like others who joined me on that day, I 
pointed to some serious and growing gaps that war gaming and analysis 
have identified in the capabilities of U.S. forces, voicing concerns 
about the eroding credibility of U.S. security guarantees in the face 
of these unfavorable trends. In the intervening months, I have seen 
little to change my assessment of the situation.
    The U.S. Department of Defense (DOD)'s efforts to develop a new 
National Defense Strategy (NDS) and accompanying guidance to components 
for force development are opportunities to reverse these trends, and it 
will be important that the Department get these right. But even a 
perfectly articulated NDS will do little to ameliorate the problem 
unless the Department is given more resources soon and on a sustained 
and predictable basis. Put simply, U.S. forces today and for some time 
have been given too little money with which to prepare for the missions 
assigned to them.
          u.s. military capabilities: a summary assessment \3\
---------------------------------------------------------------------------
    \3\ Research and analysis upon which this testimony draws is 
documented, among other places, in David Ochmanek, Peter A. Wilson, 
Brenna Allen, John Speed Meyers, and Carter C. Price, U.S. Military 
Capabilities and Forces for a Dangerous World: Rethinking the U.S. 
Approach to Force Planning, Santa Monica, Calif.: RAND Corporation, 
RR1782-IRD, Forthcoming.
---------------------------------------------------------------------------
    The security environment in which U.S. forces are operating and for 
which they must prepare is, in important ways, more complex and more 
demanding than the familiar post-Cold War world in which most of us 
have formed our expectations about what constitutes an appropriate 
level of investment in military power. \4\ To wit:
---------------------------------------------------------------------------
    \4\ Research and analysis upon which this testimony draws is 
documented, among other places, in David Ochmanek, Peter A. Wilson, 
Brenna Allen, John Speed Meyers, and Carter C. Price, U.S. Military 
Capabilities and Forces for a Dangerous World: Rethinking the U.S. 
Approach to Force Planning, Santa Monica, Calif.: RAND Corporation, 
RR1782-RC, forthcoming.

    <bullet>  United States force planning prior to Russia's attacks on 
Ukraine did not take account of the need to deter large-scale 
aggression against the North Atlantic Treaty Organization (NATO).
    <bullet>  DOD has not moved quickly enough to provide the 
capabilities and basing posture called for to meet the manifold 
challenges posed by China's rapidly modernizing armed forces.
    <bullet>  The prospect of nuclear weapons in the hands of North 
Korea and, potentially, Iran poses challenges for which United States 
forces do not currently have satisfactory answers.
    <bullet>  United States forces face the prospect of a 
geographically widespread campaign of indefinite duration against the 
Islamic State of Iraq and Syria (ISIS), Al Qaeda, and other violent 
extremist groups.

    As these threats have emerged and U.S. forces have engaged in 
unremitting combat for 16 years, the nation has not committed the 
resources called for to build and sustain the capabilities that the 
forces need if they are to succeed in this more demanding environment. 
As a result, the United States now fields forces that are, at once, 
larger than needed to fight a single major war, failing to keep pace 
with the modernizing forces of great-power adversaries, poorly postured 
to meet key challenges in Europe and East Asia, and insufficiently 
trained and ready to get the most operational utility from many of 
DOD's active component units. Put more starkly, RAND's war games and 
simulations suggest that U.S. forces could, under plausible 
assumptions, lose the next war they are called upon to fight. \5\ In 
light of this, it is a matter of increasing urgency that the nation 
invest in new military capabilities, posture, and operational concepts 
designed to meet the manifold challenges presented by U.S. adversaries.
---------------------------------------------------------------------------
    \5\ For a succinct assessment of the military balance between 
Russia and NATO and the prospects for a defense of the Baltics, see 
David A. Shlapak and Michael W. Johnson, Reinforcing Deterrence on 
NATO's Eastern Flank: Wargaming the Defense of the Baltics, Santa 
Monica, Calif.: RAND Corporation, RR-1253-A, 2016. For an assessment of 
trends in China's armed forces and their implications for United States 
defense strategy and planning, see David Ochmanek, Sustaining United 
States Leadership in the Asia-Pacific Region: Why a Strategy of Direct 
Defense Against Antiaccess and Area Denial Threats Is Desirable and 
Feasible, Santa Monica, Calif.: RAND Corporation, PE-142-OSD, 2015.
---------------------------------------------------------------------------
Peer Adversaries and A2/AD Threats
    The means that the United States' most capable adversaries--China 
and Russia--use to create those challenges (ballistic and cruise 
missiles, sophisticated air defenses, anti-satellite weapons, electro-
magnetic and cyber attacks, and so forth) are well known and do not 
need to be repeated here. It is, however, important to understand how 
U.S. and allied forces can and should be evolving their capabilities, 
posture, and operational concepts to address these challenges.
    Our research points to four independent but complementary lines of 
capability development:

    1.  Damage, disrupt, and destroy the enemy's operational centers of 
gravity in contested domains. Specifically, this means finding ways to 
``reach into'' contested airspace and maritime zones to locate, 
identify, engage, and attack the surface ships that would be part of a 
Chinese invasion of Taiwan or the mechanized ground forces that would 
constitute the spearhead of a Russian invasion of the Baltic states. 
U.S. adversaries seek to use their anti-access/area denial (A2/AD) 
capabilities to create a window of opportunity during which they hold 
U.S. combat power at bay so that they can conduct campaigns of 
aggression. The United States must be able to deny them this sanctuary 
from the outset of a conflict, even before U.S. forces have suppressed 
the enemy's A2/AD threats. This approach differs in important ways from 
the joint operational concept that U.S. forces have used successfully 
against less capable adversaries since Operation Desert Storm in 1991, 
and implementing the approach will require new capabilities.

    2.  Strengthen U.S. military posture in key theaters. Since 
Operation Desert Storm, U.S. forces have become accustomed to relying 
heavily on an expeditionary approach to power projection, in which the 
vast bulk of U.S. combat power employed in a conflict is deployed 
forward following warning or the actual initiation of hostilities. This 
approach is less appropriate for theaters in which U.S. and allied 
forces face threats from highly capable adversaries, especially in NATO 
member countries in Europe, where heavy ground forces will play 
important roles in an effective defense. Strengthening posture also 
means investing in base infrastructure that is more resilient in the 
face of large-scale attacks by accurate ballistic and cruise missiles.

    3.  Improve capabilities to suppress and destroy enemy air 
defenses. In every conflict since Korea, United States forces have 
operated virtually without regard to the threat of enemy air attacks 
and have enjoyed freedom of maneuver in enemy airspace, allowing them 
to observe and attack targets of value to the enemy. Dense arrays of 
modern, mobile, surface-to-air missile systems and modern fighter 
aircraft give China and Russia the ability to deny United States forces 
this crucial advantage, at least during the critical opening phase of a 
conflict, and U.S. capabilities to counter these have not kept pace 
with the threat. Adversaries' heavy investments in these defenses 
reflect their fear of what modern air forces with precision weapons can 
do on the battlefield. Accordingly, fielding improved capabilities to 
suppress enemy air defenses should have outsized effects on deterrence 
of aggression.

    4.  Win the fight for information superiority. Recognizing the 
critical importance of accurate, timely information and agile command 
and control in modern military operations, U.S. adversaries are 
investing heavily in capabilities intended to improve their 
understanding of the battlefield and to deny the United States the 
same. These capabilities include space-based and airborne sensors, 
robust communication systems and command facilities, electronic jamming 
systems, anti-satellite weapons, and cyber weapons. This makes it 
imperative that DOD invest in more survivable sensor platforms and 
communication links, cyber defenses, and offensive systems. U.S. 
forces, which have become accustomed to operating in environments that 
pose no threats to their information superiority, must also find ways 
to operate effectively in disrupted, ``low bandwidth'' environments.
Nuclear-Armed Regional Adversaries
    Repeated war games consistently show that deterring a nuclear-armed 
regional adversary, such as North Korea, poses unique challenges that 
make it anything but a lesser-included case of deterring a more capable 
adversary, such as Russia or China. Ironically, the relative weakness 
of North Korea's conventional forces means that, in a conflict or deep 
crisis, a North Korean leader may perceive that he and his regime have 
little to lose in using nuclear weapons against military targets, 
making it difficult to deter such use through the threat of retaliation 
in-kind. This reality means that U.S. and allied forces are driven to 
find ways to improve capabilities to prevent nuclear-armed regional 
adversaries from effectively using their nuclear weapons. \6\ Given the 
challenges associated with locating and destroying weapons in deep 
underground facilities, hunting and destroying dispersed mobile 
missiles, and intercepting ballistic missiles once launched, the United 
States should not have high confidence in its nuclear prevention 
capabilities today.
---------------------------------------------------------------------------
    \6\ See David Ochmanek and Lowell H. Schwartz, The Challenge of 
Nuclear-Armed Regional Adversaries, Santa Monica, Calif.: RAND 
Corporation, MG-671-AF, 2008.
---------------------------------------------------------------------------
Salafist-Jihadis and Other Violent Extremist Groups
    Even as U.S. forces are faced with the need to quickly and 
significantly ``raise their game'' vis-a-vis peer and nuclear-armed 
regional adversaries, they must also continue with the ongoing fight 
against the most threatening violent extremist groups, including the 
Taliban in Afghanistan, ISIS in its various manifestations, and Al 
Qaeda. A central tenet of U.S strategy against such groups has been to 
keep them under constant pressure over long periods of time, so as to 
keep them off-balance and to prevent them from effectively recruiting 
and expanding their influence and power. Extensive experience in 
battling such groups over the past 16 years has allowed U.S. and 
partner forces to devise increasingly effective approaches to defeating 
quasi-states, such as ISIS, and taking leadership cadres off of the 
battlefield through targeted capture or kill operations. Key 
capabilities in these fights going forward will be specialized forces 
(often from the special operations community) to train, advise, and 
assist partner forces; robust means for gathering and analyzing 
intelligence about adversary groups; and more-affordable precision 
attack capabilities that can dwell close to areas of ongoing operations 
and deliver on-call fires against emerging targets. \7\
---------------------------------------------------------------------------
    \7\ David Ochmanek, Andrew R. Hoehn, James T. Quinlivan, Seth G. 
Jones, and Edward L. Warner III, America's Security Deficit: Addressing 
the Imbalance Between Strategy and Resources in a Turbulent World: 
Strategic Rethink, Santa Monica, Calif.: RAND Corporation, RR-1223-RC, 
2015, pp. 26-27.
---------------------------------------------------------------------------
   crafting the national defense strategy and forces to implement it
    Individually and in combination, the challenges outlined earlier 
constitute an extremely demanding set of requirements for this nation's 
armed forces. Those tasked with developing the new NDS and the forces 
to implement it surely understand that a ``business as usual'' approach 
to planning and resourcing U.S. forces will not suffice. New priorities 
must be chosen and additional resources, focused on investments of 
greatest relevance to those priorities, must be made available if the 
nation is to reverse the decline in the credibility of its conventional 
deterrent.
    As a foundational step in this endeavor, DOD's leaders should 
consider directing each component to build its force so that it can, as 
part of a joint and combined operation, defeat any single adversary, 
including the most capable of them. This may seem an obvious 
requirement, but the fact is that, today, the United States should not 
have confidence that the joint force can meet it. For several years 
now, gaming and analysis of plausible future warfights have revealed 
serious and growing shortfalls in the capabilities of programmed U.S. 
forces. If not reversed, these adverse trends will have profound and 
unavoidable strategic consequences.
A Revised Force Planning Construct
    The following force planning construct would be consistent with the 
approach advocated here:

    1.  Defend the homeland.

    2.  Deter and, if necessary, defeat aggression by any single 
adversary state.

    3.  Sustain operations against selected violent extremist groups.

    4.  Deter opportunistic aggression by a second state adversary.

    Inherent in the construct would be the requirement that DOD 
components resource each of the four elements in descending order of 
priority. That is, they would be directed to accept risk in elements 3 
and 4 until it was judged that sufficient resources had been devoted to 
elements 1 and 2 to achieve a reasonable degree of confidence that 
those elements could be achieved.
    The key to making this approach work is to size and equip each 
major force element--Army combat brigades, Air Force and Marine Corps 
fighter squadrons, Navy carrier strike groups, and so forth--so that it 
can meet the demands posed by the most stressing scenario for that 
force element. As examples, the Army's armored brigade combat teams 
would be sized to meet the demands of their biggest fight (a Korea 
scenario) but equipped to successfully combat their most sophisticated 
foe (Russian ground forces), USAF fighter squadrons would be sized and 
equipped to prevail against the largest and most capable threat they 
face (Chinese forces), and so on. This would have the effect of 
promoting force modernization as the highest priority for resourcing 
while ensuring adequate capacity for at least one war--something that 
has been lacking in U.S. force planning heretofore.
    Investment Priorities
    The Defense Advanced Research Projects Agency (DARPA), the 
Strategic Capabilities Office, service labs, and industry are 
developing new capabilities that can address many, if not most, of the 
operational challenges facing U.S. forces today and in the future. Much 
can be done to reverse adverse trends by investing in near-term, here-
and-now systems and adapting key aspects of established operational 
concepts. Attached at the end of this statement is a table summarizing 
the types of military capabilities that gaming and analysis suggest can 
do the most to strengthen the joint force's ability to defeat 
aggression by the four state adversaries of greatest concern and to 
support a sustained campaign against violent extremist organizations. 
\8\ Highlights from that list, keyed to the four lines of capability 
development and the non-peer adversaries outlined earlier, are as 
follows:
---------------------------------------------------------------------------
    \8\ The research on which this testimony is drawn focused on 
understanding and countering the threats posed by state adversaries 
(such as China, Russia, North Korea, and Iran) and Salafist-Jihadi 
groups. My work has not delved deeply into issues of the readiness of 
U.S. forces or the stresses that high operational tempos may be 
imposing on people and units. I have also not addressed the need to 
recapitalize U.S. nuclear forces. The absence of recommendations in 
these areas should not be taken as implying that investments there are 
not warranted.

    <bullet>  Damage, disrupt, destroy the enemy's operational centers 
of gravity in contested domains. Develop and field sensors that can 
survive and operate in the A2/AD environment. Examples include 
unattended ground- and sea-based sensors; small, swarming unmanned 
aerial vehicles; and stealthy air vehicles. Accelerate and expand 
procurement of standoff weapons, such as the Joint Air-to-Surface 
Standoff Missile--Extended Range (JASSM-ER), the Long-Range Anti-Ship 
Missile (LRASM), and powered dispensers with guided anti-armor 
munitions so that long-range bombers can effectively and survivably 
attack key enemy targets from the outset of a conflict. Aggressively 
explore options for lower-cost weapon delivery from undersea (e.g., 
large unmanned underwater vehicles). Defer plans to retire selected 
cluster weapons until cost-effective replacements are available in 
sufficient numbers.
    <bullet>  Strengthen U.S. military posture in key theaters. Station 
more U.S. heavy armored forces and artillery along NATO's northeastern 
flank. Increase forward-based stocks of preferred munitions in both the 
U.S. Pacific Command and U.S. European Command areas of responsibility. 
Improve the resiliency of air bases with investments in low-cost 
shelters, fuel bladders, and other passive protection measures, decoys, 
and modern cruise missile defenses (e.g., Indirect Fire Protection 
Capability Increment 2).
    <bullet>  Improve capabilities to suppress and destroy enemy air 
defenses. Accelerate development and fielding of a longer-range, fast-
flying, anti-radiation missile and a longer-range air-to-air missile. 
Explore new concepts for disposable, stand-in jamming systems and 
swarming, autonomous weapons.
    <bullet>  Win the fight for information superiority. Continue to 
explore ways to use civil-sector communications and imaging satellite 
constellations in military operations. Continue to develop and test, 
and begin to field, new systems that can enhance the resiliency of 
selected military satellites, including through improved situational 
awareness, maneuver, stealth, active defense, redundancy, and 
responsive launch. Invest selectively in airborne and terrestrial 
backups to key space-based capabilities. Expand anti-satellite 
capacity, especially in systems (such as jammers and lasers) that can 
disrupt or disable adversary satellites without creating debris. Added 
investments in both defensive and offensive cyber capabilities can help 
here. However, the gaming and analysis that I have seen provide little 
hope that cyber alone can be decisive in defeating conventional 
military aggression if deterrence fails.
    <bullet>  Prevent nuclear use. Develop or adapt an air-to-air 
missile and associated sensor suite for intercepting theater ballistic 
missiles in boost-phase. Continue to explore options for improved 
discover and tracking of nuclear weapons and mobile delivery vehicles. 
Continue investments to improve the reliability of ground-based 
interceptors to protect the United States.
    <bullet>  Defeat Salafist-Jihadis and other violent extremist 
groups. Continue to expand intelligence collection and analysis 
capacity. Acquire two to three wings of light reconnaissance-attack 
aircraft for more cost-effective air operations in permissive and semi-
permissive air defense environments. Continue to grow the end strength 
of special operations forces (SOF) at a deliberate pace to ease the 
tempo of operations experienced by these warriors.
                  contributions of allies and partners
    Obviously, countering the threats that potential adversary states 
pose is not solely a problem for the United States. In fact, it would 
be unwise and infeasible for the United States to attempt to address 
these challenges unilaterally. Allies and partners, particularly those 
directly or indirectly threatened by adversary activities or in the 
same region, have a strong interest in ensuring that their forces can 
impose a high price on an aggressor and contribute effectively to 
combined regional operations that the United States might lead.
    A host of options--many of them rather low-cost and low-tech--are 
available to allies and partners seeking to increase their 
contributions to the common defense. Taiwan, for example, could 
significantly strengthen its defenses against an invasion by investing 
in short-range unmanned aerial vehicles, anti-ship cruise missiles, 
shallow water mines, rocket artillery, mobile short-range air defenses, 
and communications jamming gear. \9\ The government of the Philippines 
could help U.S. forces to increase the resiliency of its base structure 
by granting access to air bases on its territory and providing host 
nation support services to deployed forces. The Baltic states could 
invest in border monitoring and secure communication systems, while 
other NATO allies could raise the readiness levels of their armored 
maneuver forces. \10\ U.S. force planners should work closely with 
allies and partners to identify ways in which their planned investments 
and those of the United States can maximize complementarity and 
interoperability.
---------------------------------------------------------------------------
    \9\ Michael J. Lostumbo, ``A New Taiwan Strategy to Adapt to PLA 
Precision Strike Capabilities,'' in Roger Cliff, Phillip C. Saunders, 
and Scott Harold, eds., New Opportunities and Challenges for Taiwan's 
Security, Santa Monica, Calif.: RAND Corporation, CF-279-OSD, 2011, pp. 
127-136.
    \10\ Andrew Radin, Hybrid Warfare in the Baltics: Threats and 
Potential Responses, Santa Monica, Calif.: RAND Corporation, RR-1577-
AF, 2017, pp. 33-34.
---------------------------------------------------------------------------
    I will also note that the additions to the defense program 
described here are not, by and large, major platforms or new force 
structures. Rather, what emerges from our gaming and analysis is the 
value of investments in such things as advanced munitions; more-robust 
enablers (such as intelligence, surveillance, and reconnaissance (ISR) 
systems; communication links; and command and control nodes); posture, 
which is about the placement of assets and the resiliency of base 
infrastructures; and novel operating concepts. This is not to say that 
adding force structure in some areas would not have value. Surely, many 
elements of the force (not only SOF) have experienced excessively high 
operations tempos. But, in general, investing in new ways to equip, 
enable, and employ U.S. forces seems to offer the greatest leverage in 
restoring credible conventional deterrence.
    It is also worth noting that most of the force enhancements 
highlighted here are not high-tech. Many, such as fuel bladders and 
expedient aircraft shelters, are quite low-tech. Others (e.g., JASSM-
ER, guided anti-armor munitions, stationing additional ground forces on 
NATO's eastern flank) are here-and-now capabilities in which 
investments could be increased. Still others (e.g., longer-range anti-
radiation and air-to-air missiles, better exploitation of civil sector 
satellites) involve adapting or integrating existing technologies into 
new systems or new ways of operating. In short, we need not and should 
not wait for the maturation of exotic new technologies in the Third 
Offset or other long-term research and development initiatives before 
investing in things that can make major differences in the ability of 
U.S. forces to deter and defeat aggression by even the most capable 
adversaries.
                               conclusion
    The adverse trends in the relative military capabilities of U.S. 
and adversary forces outlined here have been known to the defense 
analytic community for some years now. Gaming and analysis have yielded 
growing insight into promising approaches to addressing many of the 
resulting challenges. The two things that are needed now are money and 
focus--in particular, additional money to allow the Department to move 
swiftly to develop, acquire, and field new systems and postures and a 
focus on fielding capabilities that can make the greatest and most 
enduring contributions to a robust defensive posture vis-a-vis China, 
Russia, and other adversaries. The Trump Administration and the 115th 
Congress have the opportunity to rectify the strategy-forces mismatch 
that has arisen over the past several years and put the United States 
back on a path toward fielding forces that can defeat any adversary.
    One note of caution: Fielding the sorts of capabilities I have 
highlighted here should not, in most cases, be expected to restore to 
U.S. forces the degree of overmatch that they enjoyed against regional 
adversaries of the past, such as Iraq and Serbia. Any major conflict 
involving China, Russia, or North Korea is bound to be a costly and 
bloody affair. But I believe that it is within the United States' 
means--technologically, operationally, and fiscally--to field forces 
capable of confronting even the most capable adversaries with the 
prospect of defeat if they choose aggression. That is the gold standard 
of deterrence, and it is the standard to which I believe the United 
States should aspire.
    Again, thank you for the opportunity to appear before this 
committee. I look forward to answering your questions.

         Table. Priority Enhancements to U.S. Forces and Posture
 
 
 
 
China------------------------------<bullet> Accelerated development and-
                                    fielding of a longer-range, fast-
                                    flying, radar-homing air-tosurface
                                    missile* and a longer-range air-to-
                                    air missile*
                                   <bullet> Forward-based stocks of air-
                                    delivered munitions, including
                                    cruise missiles (e.g., JASSM and
                                    JASSM-ER, LRASM)*, surface-to-air
                                    missile suppression missiles (e.g.,
                                    homing anti-radiation missile,
                                    miniature air launched decoy)*, and
                                    air-to-air missiles (e.g., AIM-9X
                                    and AIM-120)*
                                   <bullet> Prepositioned equipment and
                                    sustainment for ten to 15 platoons
                                    of modern short-range air defense
                                    systems (SHORADS) for cruise missile
                                    defense
                                   <bullet> Additional base resiliency
                                    investments, including airfield
                                    damage repair assets and expedient
                                    aircraft shelters, and personnel and
                                    equipment to support highly
                                    dispersed operations
                                   <bullet> Accelerated development of
                                    the Next-Generation Jammer* . A high-
                                    altitude, low-observable unmanned
                                    aerial vehicle system*
                                   <bullet> More-resilient space-based
                                    capabilities (achieved by dispersing
                                    functions across increased numbers
                                    of satellites and increasing the
                                    maneuverability, stealth, and
                                    ``hardness'' of selected assets)*
                                   <bullet> Counter-space systems,
                                    including kinetic and nonkinetic
                                    (e.g., lasers, jammers) weapons*
------------------------------------------------------------------------
Russia                             <bullet> *Items listed under
                                    ``China'' marked with an asterisk
                                   <bullet> Three heavy brigade combat
                                    teams and their sustainment and
                                    support elements forward based or
                                    rotationally deployed in or near the
                                    Baltic states
                                   <bullet> One Army fires brigade
                                    permanently stationed in Poland,
                                    with 30-day stock of artillery
                                    rounds, and one additional fires
                                    brigade set prepositioned
                                   <bullet> Forward-based stocks of
                                    artillery and multiple launch rocket
                                    system rounds, plus anti-tank guided
                                    missiles
                                   <bullet> Forward-based stocks of air-
                                    delivered anti-armor munitions
                                    (e.g., SFW/P3I)
                                   <bullet> Eight to 12 platoons of
                                    SHORADS forces stationed or
                                    rotationally deployed in NATO Europe
                                   <bullet> Increased readiness and
                                    employability of mechanized ground
                                    forces of key NATO allies
------------------------------------------------------------------------
Iran                               <bullet> Improved, forward-deployed
                                    mine countermeasures
                                   <bullet> High-capacity close-in
                                    defenses for surface vessels
------------------------------------------------------------------------
North Korea                        <bullet> Improved ISR systems for
                                    tracking nuclear weapons and
                                    delivery systems
                                   <bullet> Exploratory development of
                                    boost-phase ballistic missile
                                    intercept systems
                                   <bullet> Continued investments to
                                    improve the reliability and
                                    effectiveness of the ground-based
                                    intercept system to protect the
                                    United States
------------------------------------------------------------------------
Salafist-Jihadi                    <bullet> Improved intelligence
                                    collection and analysis capabilities
                                    and capacity
Groups                             <bullet> Light reconnaissance and
                                    attack aircraft
                                   <bullet> Gradually expanded SOF end
                                    strength toward a goal of 75,000-
                                    80,000
                                   <bullet> Powered exoskeleton, also
                                    known as the Talon Project
                                   <bullet> Swarming and autonomous
                                    unmanned vehicles
------------------------------------------------------------------------
 
SOURCE: Ochmanek et al., forthcoming.

    Chairman McCain. Thank you.
    Dr. Mahnken?

  STATEMENT OF THOMAS G. MAHNKEN, Ph.D., PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, CENTER FOR STRATEGIC BUDGETARY ASSESSMENTS

    Dr. Mahnken. Chairman McCain, Ranking Member Reed, 
distinguished members of the committee, thank you for the 
invitation to appear before you today to discuss the National 
Defense Strategy (NDS).
    The National Defense Strategy can serve as a powerful tool 
to focus and organize the Department of Defense to ensure that 
the United States maintains and bolsters its competitive 
advantages in an increasingly challenging environment. In the 
brief time I have, I would like to touch on six topics that the 
NDS should address and then conclude with one topic that 
undergirds them all.
    First, the NDS should address the threats and challenges 
the United States faces and determine the priority for 
addressing them.
    As has previously been mentioned, we find ourselves today, 
once again, in a period of great-power competition with an 
increasing possibility of great-power war. It is the most 
consequential threat that we face, and failure to deter, 
failure to prepare adequately for it, would have dire 
consequences for the United States, our allies, and global 
order. Because of that, I believe that preparing for great-
power competition and conflict should have the highest 
priority.
    At the same time, we face increasingly capable regional 
foes, to include North Korea and Iran. So while great-power 
competition and conflict should have the highest place, we also 
need to stress test our forces against these regional threats.
    Finally, now and for the foreseeable future, we will need 
to wage a global counterinsurgency campaign against jihadist 
terrorist groups. We need to acknowledge that reality and plan 
accordingly.
    Second, the NDS should provide both a global and a regional 
look at U.S. defense strategy and set priorities there.
    The reality is that the United States is a global power 
with interests that span the world. Moreover, we face 
competitors who are active not only in their backyards, in 
their home regions, but also far beyond them. China is building 
up its military not only in the Western Pacific but also is 
active in the Middle East and Africa. Russia is not only using 
force in Ukraine but also in Syria.
    That having been said, not all regions carry the same 
strategic weight.
    Asia's strategic weight continues to grow, and it is 
increasingly the locus of economic, military, and political 
activity for the world. In my view, it is the most 
consequential region.
    Europe is also extremely important. Its strategic salience 
has grown as threats to it and to American interests there have 
increased.
    The United States cannot afford to ignore the Middle East, 
however much some may want to. History shows vividly that 
failure to address terrorism and instability far from our 
shores will eventually lead to those very same problems being 
visited on us at home.
    Third, the NDS should provide focus on spending priorities, 
on readiness, force size, and modernization. The readiness 
deficiencies of the U.S. Armed Forces are on stark display on 
an all too regular basis, and Secretary of Defense Mattis 
justifiably made improving readiness his first priority.
    However, it has also become obvious that the Navy and the 
Air Force are smaller than is prudent in an increasingly 
competitive environment. Our forces, as has previously been 
noted, are also in dire need of modernization after a long 
hiatus.
    While the United States was focused on defeating insurgents 
in Iraq and Afghanistan, Russia and China were focused on 
acquiring capabilities to defeat us. As a result, we find 
ourselves a step behind in a number of key warfighting areas. I 
would agree with what Dave Ochmanek said just before me.
    Fourth, the NDS should balance the need to fight and win 
wars with the need to deter and compete in peacetime. We must 
prepare for both the reality of great-power competition and the 
increasing possibility of great-power war.
    One manifestation of the former is the development and 
refinement by China and Russia of approaches to compete with us 
below the threshold that they calculate will draw a major U.S. 
response. We need to develop strategies to compete and win in 
peacetime. Just as our competitors are using many tools to do 
so, to include political warfare, information, economic 
incentives, and so forth, so do we have many available to us. 
What has all too often been lacking on our side, however, has 
been the political will to use them, to incur risk, to 
demonstrate our resolve, and, thus, to deter.
    Fifth, the NDS should speak to how the United States can 
work more effectively with our allies. Our allies represent a 
long-term competitive advantage for the United States. We need 
to devise ways to work more closely with them, to develop and 
share capabilities more effectively with them, and to increase 
interoperability.
    Sixth, the NDS should put forward a force plan and 
construct to guide and shape the size of U.S. forces. Here, I 
would commend to you CSBA's recent Force Planning for the Era 
of Great Power Competition, which explores the topic in depth.
    But in my view, the force-planning construct should focus 
on the need to both compete in peacetime with great powers but 
also to fight and win a great-power war, if only to bolster 
deterrence. The United States should also be able to do these 
things while deterring or fighting a regional foe. The force-
planning construct should acknowledge the reality that the 
United States will be engaged in a global counterinsurgency 
campaign for the foreseeable future.
    One of the keys to doing these things is likely to be 
innovative operational concepts and capabilities, and here, 
there is room for considerable creative thought and action.
    Now, I have outlined six considerations for the NDS, and 
the answers that the NDS provides to these six questions will 
help answer one that is much greater and far more 
consequential. And that is this: What role will the United 
States play in coming decades? Will we continue to lead and 
defend the international order, an order that has benefited us 
greatly? Or will we retreat into a diminished role? Will we 
compete? Or will we sit on the sidelines as states who seek to 
reshape the world to their benefit and to our detriment take 
the field?
    If we answer in the affirmative, then we need to 
acknowledge the magnitude of the task ahead. It will take time. 
It will take resources, and it will take political will.
    I, for one, hope the answer is in the affirmative and that 
we muster what is needed for the competition that lies ahead of 
us.
    Thank you, and I await your questions.
    [The prepared statement of Dr. Mahnken follows:]

                Prepared Statement by Thomas G. Mahnken
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the Committee, thank you for your invitation to appear before you today 
to discuss the National Defense Strategy.
    This is a vitally important topic. In recent years, it has become 
apparent that we are living in a world characterized by the reality of 
great-power competition and the growing possibility of great-power war. 
At the same time, the United States faces increasingly capable regional 
rogues, such as North Korea and Iran, which possess or are developing 
nuclear weapons and the ability to deliver them to great distances. We 
also face the need, today and into the future, to wage a global 
counterinsurgency campaign against jihadist terrorist groups. At the 
same time, it has become painfully obvious that the United States 
possesses limited resources--or more accurately limited political will 
to muster the resources--to meet this increasingly competitive 
environment.
    The National Defense Strategy can serve as a powerful tool to focus 
and organize the Department of Defense to ensure that the United States 
maintains and bolsters its competitive advantages in an increasingly 
challenging environment.
    I would first like to discuss six topics topics that the NDS should 
address, and conclude with one topic that undergirds them all.
    First, the NDS should address the threats and challenges that the 
United States faces and determine the priority for addressing them.
    As I noted at the outset, we find ourselves today once again in a 
period of great-power competition with an increasing possibility of 
great-power war. It is the most consequential threat that we face, and 
failure to deter and prepare adequately for it would have dire 
consequences for the United States, our allies, and the global order. 
Because of that, I believe that preparing for great-power competition 
and conflict should have the highest priority.
    At the same time, we face increasingly capable regional foes, to 
include North Korea and Iran. We need to stress test our forces against 
these threats.
    Finally, now and for the foreseeable future, we will need to wage a 
global counterinsurgency campaign against jihadist terrorist groups. We 
need to acknowledge that reality and plan accordingly.
    Second, the NDS should provide both a global and regional look at 
U.S. defense strategy and set priorities there.
    The United States is a global power, with interests that span the 
world. Moreover, we face competitors who are active not only in their 
home regions, but also far beyond them as well. China is not only 
building up its military in the Western Pacific, but is also active in 
the Middle East and Africa. Russia is not only using force in Ukraine, 
but also in Syria. That having been said, not all regions carry the 
same strategic weight.. Asia's strategic weight continues to grow, and 
it is increasingly the locus of global economic, military, and 
political activity. In my view, it is the most consequential region. 
Europe is also extremely important. Its strategic salience has grown as 
threats to it, and to American interests there, have increased. The 
United States cannot afford to ignore the Middle East, however much 
some may want to. History shows vividly that failure to address 
terrorism and instability far from our shores will eventually lead to 
those very same problems being visited on us at home.
    Third, the NDS should provide focus on spending priorities on 
readiness, force size, and modernization.
    The readiness deficiencies of the U.S. armed forces are on stark 
display on an all-too-regular basis, and Secretary of Defense Mattis 
justifiably made improving readiness his first priority. However, it 
has also become obvious that the Navy and Air Force are also smaller 
than is prudent in an increasingly competitive environment. Our forces 
are also in dire need of modernization after a long hiatus. While the 
United States was focused on defeating insurgents in Iraq and 
Afghanistan, Russia and China were focused on acquiring capabilities to 
defeat us. As a result, we find ourselves a step behind in a number of 
key warfighting areas.
    Fourth, the NDS should balance the need to fight and win wars with 
the need to deter and compete in peacetime.
    We must prepare for both the reality of great-power competition and 
the increasing possibility of great-power war. One manifestation of the 
former is the development and refinement by China and Russia of 
approaches to compete with us below the threshold that they calculate 
will draw a major U.S. response. We need to develop strategies to 
compete and win in peacetime. Just as our competitors are using many 
tools to do so, so do we have many available to us. What has all too 
often been lacking on our side, however, has the political will to use 
them, to incur risk, to demonstrate our resolve, and thus to deter.
    Fifth, the NDS should speak to how the United States can work more 
effectively with our allies.
    America's allies represent a long-term competitive advantage. We 
need to devise ways to work more closely with them, to develop and 
share capabilities more effectively with them, and to increase 
interoperability.
    Sixth, the NDS should put forward a force planning construct to 
guide the shape and size of U.S. forces.
    Here I would commend to you CSBA's recent Force Planning for the 
Era of Great Power Competition, which explores the topic in depth.
    In my view, this force planning construct should focus on the need 
to both compete in peacetime with great powers, but also to fight and 
win a great-power war, if only to bolster deterrence. The United States 
should also be able to do these things while deterring or fighting a 
regional foe. The force planning construct should acknowledge the 
reality that the United States will be engaged in a global 
counterinsurgency campaign for the foreseeable future. One of the keys 
to doing these things is likely to be innovative operational concepts 
and capabilities, and here there is room for considerable creative 
thought and action.
    In conclusion, the answers the NDS provides to these six questions 
will help answer one that is much greater and more consequential, and 
that is this: What role will the United States play in coming decades? 
Will we continue to lead and defend the international order--an order 
that has benefited us greatly--or will we retreat into a diminished 
role? Will we compete, or will we sit on the sidelines as states who 
seek to reshape the world to their benefit and our detriment take the 
field? If we answer in the affirmative, then we need to acknowledge the 
magnitude of the task ahead. It will take time, resources, and 
political will.
    I, for one, hope that we answer in the affirmative, and that we 
muster what is needed for the competition that lies ahead of us.

About the Center for Strategic and Budgetary Assessments
The Center for Strategic and Budgetary Assessments (CSBA) is an 
independent, nonpartisan policy research institute established to 
promote innovative thinking and debate about national security strategy 
and investment options. CSBA's analysis focuses on key questions 
related to existing and emerging threats to U.S. national security, and 
its goal is to enable policymakers to make informed decisions on 
matters of strategy, security policy, and resource allocation.

    Chairman McCain. Thank you, Doctor. This has been very 
helpful to the committee, and I think we can discuss it in 
light of the events of the last couple days, and I am talking 
about North Korea's missile launch.
    I know of no expert who believed that it would happen this 
quickly and this high.
    So we will begin with you, Ms. Eaglen.
    Ms. Eaglen. So I think from the testimony here this 
morning, there is a consensus that, actually, everyone up here 
and on the committee actually knows what the Defense Department 
needs to do. It is only if they will do it, whether or not they 
will answer the questions honestly that we have outlined.
    Of course, that includes North Korea, one of the big five 
challenges, as coined by the last administration [the Obama 
Administration] and endorsed by this one, which includes North 
Korea.
    Chairman McCain. Wouldn't you agree this is the first time 
that there is a capability of hitting the United States of 
America?
    Ms. Eaglen. I would agree. I think the Air Force a couple 
years ago may have been the only service that predicted 
something along this timeline in classified reports.
    But it has clearly shown its capability. As you mentioned, 
Mr. Chairman, the trajectory, in particular, is what is 
important. It is a wakeup call to remind the American people 
and Congress, again, what we already know.
    Every time we think it is going to take longer than it 
does, it usually happens faster and more quickly.
    So what can we do about it now? Some of the solutions that 
we have talked about up here already, about basing and posture 
and infrastructure, more missile defense in the region, and 
other recommendations in detail are also in my testimony.
    But the core assumption that things will take longer, that 
others will mature slower than we hope because that is what is 
in our plan and in our strategy, should be thrown out the 
window.
    Chairman McCain. So if you and I had been having this 
discussion 2 years ago, you would not have predicted this?
    Ms. Eaglen. I would say our track record as a country, as a 
Defense Department, and as an intelligence community is dismal 
in predicting what will happen and how quickly, not just the 
occurrence of events like the Arab Spring, which was completely 
not predicted at all, but also the timeline of capability 
development by enemies and potential foes.
    We have been wrong almost every single time, and it is 
usually because it has been faster than we have predicted.
    Chairman McCain. Dr. Karlin?
    Dr. Karlin. Unfortunately, our options vis-a-vis North 
Korea are terrible, and anyone who tells you differently is a 
foolish optimist.
    So what we need to do in the near term is we need to 
rebuild our defenses, we need to----
    Chairman McCain. You are talking about antimissile 
capabilities?
    Dr. Karlin. Writ large, absolutely, anti-missile 
capabilities. We need to rebuild our readiness. We need to 
improve our base posture, but also our resilience and dispersal 
across Asia. Because if there is a conflict, we will see U.S. 
bases in places like Guam, in places like South Korea, and in 
places like Japan under heavy, heavy fire. We need to do all we 
can to get close to our allies like Japan and South Korea.
    Chairman McCain. I know you have seen the RAND study that 
shows closure between their capabilities and ours. That is of 
concern?
    Dr. Karlin. Absolutely.
    We need to find a way to minimize the toll that the Middle 
East chaos will continue to take on our force. It is sucking 
away readiness. It is prioritizing capacity over meaningful 
capability. It is also not going away.
    Chairman McCain. We are asking our servicemembers to work 
100-hour workweeks.
    General?
    General Spoehr. Exactly right. I think 100 is probably a 
low estimate for some of them, sir.
    But I would concur with the panelists here. We need to 
increase, as this committee and the House did, missile defense, 
global midcourse defense interceptors in Alaska and California, 
Aegis destroyers and cruisers.
    We need to ensure that our stocks of precision-guided 
munitions are where they need to be, in case we do have to do 
one of those options, which would be unthinkable. But we need 
to make sure we have enough Joint Direct Attack Munitions 
(JDAMs) and small-diameter bombs to prosecute the war. Today, I 
am not entirely certain that we have that.
    We just need to ensure the fundamental readiness of our 
Armed Forces. We need to make sure that our forces are ready, 
if the President calls on them, to do what needs to be done, 
sir.
    Chairman McCain. One of the aspects of this that is so 
frustrating to us is that, as predicted, the workweeks are 
longer, the readiness suffers, the availability of aircraft 
suffers, because that is the easy part. To ask any 
servicemember to work a 100-hour workweek is sooner or later 
going to have a significant effect on retention.
    General Spoehr. Recruiting as well, sir, I would add. It is 
a tough year, I think, for the Army and other services for 
recruiting. If people see what we are asking of our 
servicemembers, I think they will be less likely to join our 
service.
    Chairman McCain. Thank you.
    Mr. Ochmanek. Sir, without doubt, an intercontinental 
ballistic missile (ICBM) capability in the hands of the likes 
of Kim Jong Un is a big deal. But the capability to hold at 
risk U.S. forces, allied forces, and the populations of our 
allies in South Korea and Japan with a nuclear weapon already 
was a game-changer in that scenario. It drives us to----
    Chairman McCain. Were you surprised at the capability that 
Kim Jong Un has developed?
    Mr. Ochmanek. No, sir. We started gaming the consequences 
of a potentially nuclear-armed North Korea in 2001. We learned 
a lot about the options available to him and the behavior of a 
leader like that under the stress of conflict. We are not 
optimistic about the ability to deter nuclear use once conflict 
breaks out on the Korean Peninsula.
    So it drives us to want capabilities to actually prevent 
him from using those weapons, shooting down the missiles before 
they leave North Korean airspace, killing them on the ground 
before they can be launched. That is going to require some 
investment and some new capabilities.
    Chairman McCain. Dr. Mahnken?
    Dr. Mahnken. Mr. Chairman, the situation with North Korea, 
to my mind, just is the most recent demonstration of the allure 
of wishful thinking. So I would agree with David Ochmanek. I 
mean, it should not be a surprise that North Korea is where it 
is now. But we have spent decades first imagining that North 
Korea was just going to collapse on its own, then imagining 
that they would not be able to master nuclear weapons, then 
imagining that they would not be able to master the ability to 
deliver them over longer ranges.
    We are where we are, but I think we need to pay attention 
to this allure, which still exists, of wishful thinking, to 
imagine a world as we wish it was, not the world as it is.
    As far as North Korea is concerned, I think we are going to 
have to be more active in deterring North Korea. We are also 
going to need to be more active in reassuring our allies. In 
the end, that may prove to be the more difficult of the two 
tasks. As we go about it----
    Chairman McCain. After yesterday's news, I would agree.
    Dr. Mahnken. Yes. No, we need to talk to them very 
forthrightly about what their concerns are, what would reassure 
them, and what we can do to help.
    But all through this, I want to go back to priorities and 
focus. We shouldn't let ourselves get distracted overly by 
this. North Korea is a concern. It is a threat. But it is a 
less consequential threat than the challenges we face from 
China and from Russia.
    So my view is, again, we start with the biggest threats, 
and then we look. We stress test dealing with North Korea and 
others in that context.
    Chairman McCain. But you would agree that this test has 
proven that they can hit the United States of America.
    Dr. Mahnken. They will seek to derive every benefit from 
that. So the talk of negotiations with the North Koreans now is 
coming more and more onto the table. I could expect all sorts 
of fallout from that.
    They are competing with us. Historically, they have done a 
pretty good job of it. We need to be aware of that.
    Chairman McCain. I am taking way too much time, but how can 
a country with the 125th largest economy be able to acquire 
this capability and pose a direct threat to the United States 
of America?
    Dr. Mahnken. They are focused, right? Their economy is not 
focused on the well-being of their people. It is focused on the 
military.
    North Korea has derived a lot of benefits, historically, 
from being able to threaten its neighbors. It has derived 
economic benefits, food aid, and so forth. So they have every 
motivation to continue this type of behavior, because it is 
paid off for them in the past.
    Chairman McCain. Jack?
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you all for your very, very thoughtful and insightful 
comments.
    One of the issues, I think, that resonates in everything 
you said is a perennial question in Washington: Do budgets 
drive strategy, or does strategy drive budgets? Most times, 
budgets drive strategy. So let's talk about budgets.
    Dr. Mahnken, stepping back and looking at the unavoidable 
costs, as I like to call them, we are talking about renovating 
the triad. We have to do that. It is not an option. We want to 
build a 355-ship Navy. We have to increase end-strength, 
because otherwise we are going to have sailors working 100 
hours a week and other things like that.
    What is the cost of that over a 10-year period, in your 
view?
    Dr. Mahnken. There are various estimates out there, right? 
But I think it is going to--well, there is the cost if we go 
back to doing business as we should, not ruling by continuing 
resolution, but actually passing budgets. I would say that the 
American taxpayer's dollar will actually get substantially 
more----
    Senator Reed. I concur, but what is the rough cost? Let's 
say we get our act together and we do this.
    Dr. Mahnken. It is going to require a sustained commitment, 
sustained increases over----
    Senator Reed. Over a trillion dollars over 10 years?
    Dr. Mahnken. I would want to take a closer look at it. But 
the cost is substantial. The cost is substantial.
    We are digging out of a long period of underinvestment. 
That is why I concluded the way I did. It will require the 
political will. It is not an economic issue. It is ultimately 
an issue of----
    Senator Reed. I concur with you.
    Mr. Ochmanek, what is your estimate for these unavoidable 
costs over a decade?
    Mr. Ochmanek. Senator Reed, in the Pentagon, planners 
talked about the capability-capacity-readiness triangle. You 
have to pay attention to all three of those things. My 
colleagues and I at RAND have been focused on the capability 
side, so I cannot talk authoritatively to the bills that need 
to be paid in readiness and about capacity.
    But on the capability side, to buy the sorts of preferred 
munitions, ISR platforms, base resiliency, communications sets, 
et cetera, we are talking on the order of $20 to $30 billion a 
year above what we are spending now sustained through the 10 
years, 12 years----
    Senator Reed. So, roughly, just for the portion of 
capabilities you describe, that is $300 billion, roughly?
    Mr. Ochmanek. Yes, sir. That order of magnitude.
    Senator Reed. Then you add readiness, and you add something 
else. So we are bumping up pretty quickly to around $1 
trillion, perhaps.
    Mr. Ochmanek. It is conceivable. If you want to buy a 
bigger force as well as----
    Senator Reed. Well, I think based on General Spoehr's 
comments about the readiness issue, recruiting issue, 
operational issue, I think we need a bigger force.
    So what is your ballpark figure, General?
    General Spoehr. It is absolutely over $1 trillion for the 
nuclear triad plus to get to the 355-ship Navy, sir.
    The only thing I would balance that against is the cost to 
rebuild a city like Kansas City, or something like that, 
recovering from a nuclear strike.
    Then I would echo what General Milley often says, and that 
is that it is a huge cost to fight a war. The only thing more 
costly than that is to fight and to lose.
    Senator Reed. So we are talking roughly $1 trillion to get 
ready, and even that might not prevent an enemy from inflicting 
damage upon us.
    Dr. Karlin, quickly, and Ms. Eaglen.
    Dr. Karlin. I would agree with my fellow panelists. But I 
might urge you to question if we do want to build a bigger 
force in the near term, because of the opportunity costs. A 
355-ship Navy would be terrific if it is a 355-ship Navy that 
can fight and win wars. If it is very capacity-heavy, can only 
exert presence, and will not be helpful if we have a conflict 
with China, with Russia, with North Korea, I, perhaps, might 
not prioritize it in the near term.
    Senator Reed. Ma'am?
    Ms. Eaglen. I would agree with the budget assessments and 
yours, Senator, that it is roughly $1 trillion to restore all 
three legs of the stool, readiness, capacity, capability. If 
you have to trim those costs, the most likely one is people.
    Senator Reed. That was good neighborly advice. We are 
former neighbors.
    My rough sense, too, is that if we really are serious about 
this, and we want strategy to drive our policy, it is about $1 
trillion over 10 years. We cannot avoid it.
    That is why I find it, let me say, ironic that in the next 
few days we might contemplate borrowing $1.5 trillion to 
provide tax cuts rather than investing--we have to borrow it; 
we do not have the money--$1 trillion for the defense of the 
United States. Because after we put ourselves $1.5 trillion 
further in the hole, the ability of this country and the 
willingness of people to go again to the ATM is going to be 
severely constrained.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Thank you to our panelists for being here today. This has 
been a very enlightening conversation.
    Mr. Ochmanek, I would like to start with you please, sir. 
Your focus is military force planning and through a traditional 
defense lens. Most analysts have viewed Europe as primarily 
land-centric and the Asia-Pacific as more maritime-centric. 
However, in recent meetings, I had an Army general that told me 
about the importance of land forces in Asia, as well as a 
maritime expert discussing naval deficiencies in Europe.
    So in light of that observation, how do we properly posture 
the joint force in these two regions to make sure that our 
adversaries are forced to reckon with us as a multidomain 
force?
    Mr. Ochmanek. Senator Ernst, I spent the early part of my 
career in the Air Force. So if I may, I would offer the view 
that a fight against China is primarily an air-maritime fight; 
a fight against Russia in defending NATO would be an air-land 
fight. But, absolutely, there are roles for naval forces in 
Europe and roles for ground forces in the Pacific.
    Our priorities for posture are as follows. In Europe, you 
want more U.S. heavy forces on the ground near the eastern 
flank of the NATO alliance every day. We have taken some steps 
in that regard with our allies to do that, but more is 
required. Something like three heavy brigades available all the 
time, as well as artillery in place to counter the Russian land 
forces, would be very appropriate.
    In both theaters, Europe and Asia, we need to pay attention 
to the fact that our air bases and sea bases will be under 
attack from the outset of the conflict. When we fight Iraq, 
when we fight Serbia, we are used to having our air bases and 
rear areas in sanctuary. Russia and China will ensure that that 
is not the case.
    So buying cruise missile defenses, for example, should be a 
high priority for both theaters. Buying fairly prosaic things 
like runway repair assets; shelters for airplanes that are 
transportable, they are called expedient shelters; fuel 
bladders, so that if they attack our fuel tanks, we still have 
fuel to put in our jets; and positioning preferred munitions 
forward in hardened storage bunkers. These things, again, are 
not high-tech, but they can make a big difference in the 
survivability and effectiveness of our force in conflict.
    Senator Ernst. Very good. I appreciate that.
    Going back to that eastern flank in Europe, then, I have 
had conflicting opinions on whether the rotational force that 
we have there now is adequate or whether we need to have a more 
permanent force structure. What would your opinion be?
    Mr. Ochmanek. Forward-stationing versus rotation is 
basically a question of efficiency. If you forward-base the 
force permanently, you only need to pay for that force, 
although you have to build some infrastructure for it. Rotating 
the force means having probably two units in reserve to sustain 
the rotation.
    So on an efficiency basis, generally, if the politics of 
the region permit, and in NATO they do, forward-stationing 
would be more cost-effective.
    Senator Ernst. Okay. Thank you for that opinion.
    Then, Mr. Ochmanek, as well, as chair of the Emerging 
Threats and Capabilities Subcommittee, I have oversight of 
unconventional warfare, and I am particularly concerned about 
Russia's activity in the gray zone, especially against Ukraine 
and other allies in Europe's eastern flank.
    What is your assessment of the United States' current 
strategy to counter unconventional warfare and the growing 
security challenges in the gray zone posed by our adversaries 
like Russia and perhaps other near-peer competitors?
    Mr. Ochmanek. Senator, we are doing a lot with our NATO 
allies to beef up their, if I can call it that, resilience to 
gray zone and subversion kinds of threats.
    Our special forces work a lot with the special forces of 
the three Baltic States, for example. We have created special 
cyber units to help our allies and partners do a better job of 
detecting and attributing cyberattacks, and defending against 
those.
    There is a lot more that can be done, but I know the 
department is cognizant of this sort of threat and is working 
on a variety of ways to counter it.
    Senator Ernst. Absolutely.
    My time is expiring. Thank you very much for being here 
today.
    Thank you, Mr. Chair.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    I want to follow up on the point that Senator Reed made.
    Each of you testified that the cost over and above the 
current budget to modernize the military and to get us to a 
place where we should be, and we all agree around this table 
that we should be, is around $1 trillion or something over $1 
trillion.
    The Senator used the word ``ironic.'' I use the word 
``preposterous'' that later today or tomorrow, we are going to 
pass a bill that is going to take between a minimum of $1.5 
trillion and probably more like $2.2 trillion once the cuts are 
extended, which everyone knows they will be, out of the budget, 
which I believe will make it flat impossible to do the work 
that you are suggesting is necessary for us to do. The 
implications of what we are doing today or tomorrow to try to 
achieve the level of defense of this country that you all have 
told us is absolutely necessary, it just cannot happen.
    So that is not a question. That is an observation.
    I want to move now to the question. I am somewhat 
astonished and disappointed that not a single one of you talked 
about anything other than military hardware. Defending the 
national security of the United States involves a continuum, it 
seems to me, that goes from diplomacy to war. War is the most 
expensive and least desirable of those outcomes.
    I think of Afghanistan. Our success there will ultimately 
depend upon the success of the government in Afghanistan to 
gain the confidence of its people.
    In Iraq, the relationship between the Government of Iraq 
and the Kurds and the Sunni population is going to determine 
whether Iraq, ultimately, is a successful state.
    North Korea, the solution to North Korea lies through 
diplomacy with China. I think everyone appreciates and 
understands that.
    The reason Iran is not North Korea today is because of the 
Joint Comprehensive Plan of Action (JCPOA) that was passed 2 
years ago. Otherwise we would be, according to the intelligence 
services, we would be dealing with an Iran with a nuclear 
weapon today, about 2 years from when we passed that bill.
    Israel, Palestine, a major flashpoint in terms of conflict 
in the Middle East, is all about diplomacy.
    Don't we have to talk about that as part of a National 
Defense Strategy? This is the tyranny--we are the Armed 
Services Committee, and we have a Foreign Affairs, Foreign 
Relations Committee. But that is part of the strategy. I am 
very disappointed that that is not part of the discussion.
    Dr. Karlin, talk to me about this.
    Right now, by the way, under the current dispensation, this 
part of the strategy--that is, diplomacy--is being drastically 
downgraded. Budgets cut at the State Department. We do not have 
an Ambassador to South Korea, for example, or even a nominee.
    Dr. Karlin, talk to me about this problem.
    Dr. Karlin. Sir, unfortunately, you are spot on.
    When you look at the senior diplomats who have left the 
State Department in the last year, it is almost equal to about 
30 percent of the U.S. general officer or flag officer corps. I 
suspect if about 30 percent of the general officers or flag 
officers left, this committee would be having a set of really 
serious hearings. Unfortunately, that is not just a today 
problem. That is a real future problem.
    I also suspect that if you asked most of us, as much as we 
want more money for defense, we would be delighted if that 
could go to the State Department. What will probably keep 
happening is that we will see an increased neutering of the 
State Department and of diplomacy more broadly.
    Senator King. By the way, what is going on now with people 
leaving and being driven out, I understand it is already 
reflecting itself in people who are applying for the Foreign 
Service.
    Dr. Karlin. Yes.
    Senator King. Applications are down something like 30 
percent.
    Dr. Karlin. Indeed. I think it was actually about 50 
percent. It is pretty substantial. So this has really long-
ranging consequences for the future of American national 
security.
    As you know, no one takes these jobs for the money. They 
take these jobs because they want to help make the world 
better. If they do not see that opportunity, they will go do 
something else.
    So it is really profoundly worrying across-the-board. I 
think a lot of us are not really terribly sure what to do about 
it.
    But what will likely happen is, you will see the State 
Department get increasingly neutered. Everyone will turn to the 
Pentagon and ask the military to fill those roles. The military 
will salute, and they will try to fill those roles. But they 
are not as capable to do so.
    Moreover, there will be a real opportunity cost. Because 
they will not actually be focused on fighting and winning wars 
or preparing for the future. They will be trying to be pseudo-
diplomats.
    Senator King. Dr. Mahnken, do you have a thought on this 
point?
    Dr. Mahnken. Diplomacy is undoubtedly important.
    Senator King. It is not undoubtedly important. It is 
important.
    Dr. Mahnken. I had the pleasure of working for a Secretary 
of Defense who worked very hard to increase the size of the 
State Department.
    However, diplomacy is much more effective when it is backed 
by credible military power. Nor can diplomacy be a substitute 
for the military.
    Senator King. I am certainly not asserting that.
    Dr. Mahnken. Yes.
    Senator King. But what I am asserting is that, if you have 
two pieces here, we are talking about strengthening one while 
the other is atrophying before our eyes. I think that is a 
serious national security concern.
    Dr. Mahnken. I would agree. I think, unfortunately, it has 
been a long-term trend across administrations, both in terms of 
funding of the State Department and attracting the best and the 
brightest. I think it is an issue that needs to be addressed.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Thank you to each of our witnesses today.
    Again, really thoughtful testimony. I appreciate the 
discussion. I want to get into a little more discussion on an 
area that I think there is some disagreement on the panel.
    But before I do that, I want to concur with my colleagues 
who have already spoken about the cost of doing what is going 
to be necessary to secure the future of this country. I hope 
that every one of the members of the Armed Services Committee 
really takes to heart what he or she heard today, that we may 
be talking about a $1 trillion additional investment. A vote 
taken later today or tomorrow that cuts $1.4 trillion or more, 
depending on what number you look at, is fundamentally 
inconsistent with what we heard today.
    So I am hoping every member of this committee, in 
particular, will understand where we are.
    We obviously face significant current threats, which all of 
you have articulated very clearly. But there are also future 
threats that are going to evolve. One thing that really stuck 
with me in talking with Secretary Mattis was he was very clear 
that he believed his success on the battlefield was really as a 
result of decisions that were made 10 years prior to when he 
was engaged in that role. We need to be thinking forward as to 
what that world is going to look like in 10 years.
    We know that we are probably on the cusp of one of the most 
exciting and perhaps frightening both times of human history in 
terms of technological advances that are coming very, very 
rapidly.
    In my home State with automation and self-driving cars, a 
couple years ago, people thought it was fantasy. It is going to 
be reality very soon, which will transform the auto industry in 
every way as big as when the first car came off the assembly 
line. It is going to have implications, through artificial 
intelligence (AI), of every single industry you can possibly 
imagine.
    You have nanotechnology. We have synthetic biology. We have 
additive manufacturing.
    The only thing we know for sure is, 10 years from now, this 
world will look dramatically different than it does today. That 
means the future of warfare is likely to also look dramatically 
different than it does today.
    So I have heard a couple folks say that we shouldn't be 
looking at AI and some of these other technologies, so I am 
going to want some clarification on that because, as Ms. Eaglen 
said, everything seems to happen quicker than people 
anticipate.
    We had AI recently beat the international Go champion. That 
sounds kind of trivial, but it is a game that was thought to be 
uniquely human, and it would be at least a decade before AI 
would have the capability of doing that. It did it.
    AI systems are now creating encryption systems on their 
own.
    I mean, this is incredibly fascinating. But it is certainly 
one that we have to be ahead of the curve, because other 
countries are doing it.
    So, Ms. Karlin, my first question to you, because you 
brought up how we have to be particularly leaning forward when 
it comes to exploiting these technologies and concerned about 
our adversaries, will you tell me why it is important that we 
lean in, in AI and these technologies, and we have to be 
thinking about that, too?
    Dr. Karlin. Absolutely, sir. We should lean in because 
there will be opportunities in that field, but above all, our 
adversaries and competitors are also pursuing them rigorously. 
So we need to know, if we engage in a potential conflict in the 
future with countries like Russia or China, they are going full 
steam ahead in the AI field.
    In fact, there was a piece in the New York Times recently 
about how China is really planning to dominate that field in 
about 10 years. So if we are not thinking about the 
opportunities it offers us, we need to know what challenges it 
will also present.
    Senator Peters. Thank you.
    General and Mr. Ochmanek, I think you both mentioned in 
your testimony, correct me if I'm wrong, these kind of trends 
are a fad now to talk about. AI, we shouldn't be talking about 
that. If you would just tell me more about what your thinking 
is, that would be very helpful.
    General Spoehr. Yes, sir. I mean, I do not mean to imply 
that AI and things like that are not important, and they are, 
and we need to keep up with the technology. But they cannot 
substitute for a ready and capable force.
    So for example, you can have all the artificial 
intelligence and swarms of mini-drones, but it does not 
replace, for example, a soldier on a street corner in a 
contested city or a destroyer on-station in the South China 
Sea. You cannot substitute high-end technology for presence and 
the ability to deter on-station.
    Senator Peters. I would say, I do not know if anyone is 
arguing that we have a substitute. It is an understanding that 
it leverages it. In fact, AI systems working with a soldier on 
that street corner can be incredibly powerful.
    So we have to do both, is my understanding.
    Mr. Ochmanek, I know you mentioned it as well in your 
testimony.
    Mr. Ochmanek. Yes. Thank you, Senator, for the opportunity 
to clarify that.
    My point was that we need not and should not wait for the 
maturation of exotic Third Offset technologies to begin filling 
serious gaps in our capabilities today. We have to, of course, 
continue to invest in that Research and Development (R&D) and 
those future systems, but at the same time, there are mature 
technologies, available systems today, that can go a long way 
toward addressing the threats that we face.
    I would hate to see us again delay needed investments now 
while we wait for this next generation of capability.
    Thank you.
    Senator Peters. Thank you.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you to each of you for being here.
    Let me just echo the concerns that have been raised by my 
colleagues about what passing this tax bill will do to our 
ability to deal with so many other priorities that we have in 
this country, particularly defense. I think it is a nonstarter 
to think we are going to pass a $1.5 trillion tax bill and have 
another $1 trillion in the next 10 years for defense. So I 
think several of you have said we are trying to define the 
world the way we want it to look. Well, I think that is a 
situation of defining the world the way we want it to look, as 
opposed to the way it is.
    I very much appreciated you, Dr. Karlin, and I think it 
was, I am not sure, maybe Mr. Ochmanek, who talked about the 
need to prioritize what we are doing. Part of a strategy is 
saying there are some things we can do and some things that we 
cannot do.
    I found it distressing to hear most of you continue to talk 
about, or as I understood your testimony, to talk about 
conflict in the future the way we have looked at conflict in 
the past. While you pointed out that there were going to be 
differences in terms of what you are suggesting we need to do 
through the Department of Defense, it did not sound like major 
differences in terms of what we ought to be thinking.
    Mr. Ochmanek, I think you were the first person to talk 
about the importance of information and cyber. As I look at 
what we are facing in the future and think about how we have 
seen warfare change through Russia and China and Iran and the 
terrorist groups, our ability to compete on information and 
cyber has been woefully lacking. We do not seem to have, 
notwithstanding what is in the National Defense Authorization 
Act (NDAA) that we have passed, to begin to address that.
    We do not seem to have a strategy in either of these areas 
that is comprehensive, that is cross-government, that has 
everybody pulling at the same rate.
    So I wonder, Mr. Ochmanek, you talked about special cyber 
units. I am not aware that we have special cyber units. So 
maybe you could delineate that a little bit and tell us more 
about those special cyber units.
    Mr. Ochmanek. I would be happy to, Senator. I am not an 
expert in cyber, but I am aware that, some years ago, we 
started creating small teams of cyber experts that both work 
here in the United States and deploy abroad to work hand-in-
glove with partners. This includes actual day-to-day operations 
on their nets, to monitor traffic coming in, teach techniques 
about how to attribute the source of attacks, which, of course, 
is very important to how you respond, and also how to use cyber 
as a tool to enable other military operations.
    That is about as much as I can share with you in this 
forum. But there is a lot of activity going on here and with 
our allies abroad in that area.
    Senator Shaheen. Well, I appreciate that. But I will tell 
you, we have had people before this committee, and I have had 
the chance to ask the question about who is in charge of those 
operations, and I have not been able to get anybody so far to 
tell me who is in charge.
    Do you know the answer to that?
    Mr. Ochmanek. I would not speculate on it.
    Senator Shaheen. Does anybody else know the answer to that?
    General Spoehr. The commander of USCYBERCOM, Senator.
    Senator Shaheen. Well, in fact, I was told that is not 
where the center is. If you would look at, government-wide, how 
we are responding to cyber threats and disinformation, that is 
not where that command is placed.
    General Spoehr. I would agree. For the whole-of-government, 
U.S. Federal response, he is not in charge of that aspect.
    Senator Shaheen. Do you know who is?
    General Spoehr. Other than the President, ma'am, I do not.
    Senator Shaheen. I think that is exactly right. We do not 
have someone who is in charge. Yet we are dealing with, as you 
all point out, not just regional threats, terrorist groups, but 
nation-states who are superpowers, again, where they have made 
a major focus in these two areas, and we are not on the playing 
field, at this point.
    So I would hope, as you are making recommendations about 
what we need to be looking at in a National Defense Strategy, 
that they should be major pieces of that National Defense 
Strategy.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you to our witnesses for being here today for this 
important topic.
    There has been a lot of debate about the relationship 
between the budget and the strategy, whether we should have a 
budget-driven strategy or a strategy-driven budget. But I think 
it is not just about how much money we spend, but how we spend 
that money.
    According to many estimates, the Russians spend about $70 
billion annually on their defense budget. That means they are 
spending about one-tenth of what this committee authorized for 
the Pentagon in 2018. But they have parlayed their investment 
into a whole lot of disruption all around the world, and one 
way they have done that is through leveraging asymmetric power. 
Things like gray zone warfare in the Crimea, cyberattacks on 
elections here in the United States.
    Similarly, the Chinese have invested in areas where they 
believe they have a relative advantage, areas like space or 
anti-access/area denial.
    So, Dr. Karlin, I want to ask, how should any new defense 
strategy take into account these kinds of asymmetric 
investments, both at the low end and the high end of the 
spectrum?
    Dr. Karlin. Thank you for that question.
    If I might first start with your point on the Russians, one 
thing to recall is that the Russians do not have to think 
globally the way that the United States does. That is part of 
why things get a little more complicated.
    Senator Warren. Fair enough, but let me just point out, 
they are having an impact globally.
    Dr. Karlin. Quite profoundly, indeed. I mean, when we look 
at them going into Syria, I do not think that had been in 
anyone's paradigm, that a country would actually want to become 
involved militarily in what was occurring in Syria. As you 
know, ma'am, the options changed considerably the minute they 
started to do so.
    So in terms of thinking about asymmetric warfare, I think 
the Defense Department has very much put it on the priority 
list in recent years.
    The irony is, from a Russian and Chinese perspective, we 
actually conduct gray zone warfare all the time. What they see 
as our use of special operations forces, what they see as our 
use of drone strikes, what they see even as the U.S. free media 
is all considered gray zone warfare, which is, of course, 
ironic since I suspect none of us would actually put any of 
those efforts into that category.
    So gray zone warfare as the Russian and as the Chinese 
think about it does not play to our comparative advantage. The 
U.S. military operates legally. The U.S. military will use its 
members in uniform. We will not have them go out and become 
like little green men the way the Russians will. That is 
something we should be proud of, in terms of how we operate.
    So as I think about how we can be more effective, it comes 
more down to how we are managing the force rather than 
developing the force. We do not need a whole lot of new whiz-
bang gizmos to actually compete well. What we need to do is do 
more snap exercises. We need to take steps to show that, at any 
time, the U.S. military can get anywhere and anyplace, to 
remind countries like Russia and China that the U.S. military 
is preeminent.
    Senator Warren. So I am a little frustrated with this. Even 
if Congress provided a $700 billion budget tomorrow, it would 
be several years before the Navy reached 355 ships or DOD could 
deploy 2,000 F-35 fighter jets. Let's face it, in the short 
term, the U.S. will be operating with something like our 
current size and structure.
    This is important to acknowledge, because the services' 
readiness challenges, like the recent collisions in the Seventh 
Fleet, indicate that after 16 years of combat, we may currently 
be badly overstretched.
    So, Dr. Karlin, in your previous role at the Pentagon, you 
were responsible for helping make the tradeoffs across the 
services among the geographic commands and between the near-
term and long-term investments. So I do not want to just hear 
that we need to prioritize.
    What I am trying to ask is a more systemic question. That 
is, how do we go about this process of prioritizing, of 
assessing risk, and making tradeoffs in a disciplined way?
    Dr. Karlin. Absolutely. I would urge the committee to have 
a classified hearing with those who are working on the National 
Defense Strategy about what the force-planning construct says, 
because that is exactly what the process is. What happens is 
the department tries to assess what the future looks like. 
Based on that, it looks at the conflicts that are most 
worrisome in that future, and you can imagine what those are.
    Based on those conflicts, it says, across the entire 
department, ``Combatant command services, how do you fight that 
conflict? What do we do?'' Then it has to adjudicate, and that 
involves a lot of betting and hedging, because we will probably 
call it wrong, as we often do, and then try to put money toward 
that situation. That ends up being a rather significant 
negotiated process, where, to placate some corners, perhaps 
some will win, and some will not lose as much as they need to.
    This is also, as I said earlier, I think the committee 
needs to have--you know, one of the great decisions of this 
committee recently was to make the National Defense Strategy 
classified. That will allow a serious conversation about who 
wins and who loses, and why those occurred.
    Senator Warren. I just have to say, when we are talking 
about words like ``strategic decisions,'' hearing you answer 
with a word like ``placate'' makes me very uneasy.
    I just want to underline that I think we need to be focused 
on not just the inputs, the number of ships or marines or 
aircraft, but also on the outputs, the goals we are trying to 
achieve with the force we have. I think that means thinking 
creatively and expanding our own use of asymmetric tactics and 
leveraging our 21st century technologies here.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    I had to be at another meeting, so I did not get in all the 
opening statements, and I did not hear all the questions.
    But to me, I think we ought to, just in my narrow view, 
what we need to be talking about right now is what happened 
last Tuesday.
    I think most people here know who James Woolsey is. You may 
not know. He is from my City of Tulsa, Oklahoma, and we have 
been good friends for a long time. He said way back in 1993, 
this is a quote that he made, he said, ``We have slain a large 
dragon,'' the Soviet Union, ``but we live now in a jungle with 
a bewildering variety of poisonous snakes.'' That was his 
quote.
    He said, the most vexing of those poisonous snakes has 
proven to be North Korea--this is 1993--and despite China and 
Russia representing the greatest threats to military supremacy, 
many experts have agreed with me that North Korea is the most 
imminent threat.
    I understand that Dr. Mahnken, perhaps, did not agree with 
this when this statement came out.
    But David Wright said, and this was pretty well-publicized, 
on Tuesday afternoon--he is an analyst in the Union of 
Concerned Scientists. He wrote that Tuesday's test indicates 
that, ``Such a missile would have more than enough
    range to reach Washington, D.C., and, in fact, any part of 
the continental United States.'' Then, of course, you heard the 
statements by General Mattis.
    So I consider this to be--it is going to have to really be 
addressed in a very heavy way. I would say, other than the 
statement that was made by Dr. Mahnken, the rest of you, do you 
pretty much agree that, in terms of imminent threat, [North 
Korea] would be the most imminent threat right now?
    Is that yes for you guys? Okay, thank you.
    Dr. Mahnken. Senator, I would actually also agree with that 
statement.
    Senator Inhofe. Would you?
    Dr. Mahnken. In terms of imminent, yes. The point that I 
made earlier was about most consequential over the long term.
    Senator Inhofe. Okay, well, this is an imminent threat, and 
that is why I wanted to word it that way.
    I would like to ask each one of you, should this be 
included in our strategic framework of the new National Defense 
Strategy? If so, how?
    Let's go ahead and start with you.
    Dr. Mahnken. In my view, we should really start by looking 
at the challenges that we face from great-power competitors, 
from Russia and China. We should figure out the force 
requirements there.
    Senator Inhofe. Okay.
    Dr. Mahnken. Then what we should do is stress test that 
force posture against threats like North Korea. It very well 
may be that you would have some special requirements that would 
come out for having to deter North Korea that might not emerge 
from the previous case.
    Senator Inhofe. Okay, I am running out of time here.
    Just kind of a quick answer and ideas you might have.
    Mr. Ochmanek. Yes, sir. North Korea absolutely needs to be 
a consideration in our National Defense Strategy, and we should 
focus our efforts in dealing with it on improving our 
capabilities to actually prevent them from using and delivering 
a nuclear weapon, specifically with a ballistic missile.
    Senator Inhofe. General?
    General Spoehr. Sir, I would say that the National Defense 
Strategy does not have the luxury of having a single threat 
like a great power. It is going to have to consider terrorism, 
rogue nations such as North Korea and Iran, and the smaller 
threats from terrorism. So, yes, I think you are right. It has 
to consider these threats.
    Senator Inhofe. Yes. Any other comments?
    Dr. Karlin. Absolutely, sir. It has for years.
    Senator Inhofe. Okay. Very good.
    The other thing, and I might go just a little bit over 
here. It is no secret that our readiness has eroded over the 
past 8 years. Budget cuts, sequestration, we have had a lot of 
meetings on this of this committee, and the idea that our 
President had a policy that he did not want to put anything in 
that would take care of sequestration in the military unless 
you put an equal amount in other programs, which I disagreed 
with, a lot of people on this committee did agree with that.
    But how would you prioritize the capability gaps 
confronting the military when compared to Russia and China? The 
Chairman of the Joint Chiefs, General Dunford, said, in just a 
few years, if we do not change our trajectory, we will lose our 
qualitative and quantitative competitive advantage. That is a 
very disturbing statement.
    Any comments, in this remaining time, that you would make 
concerning prioritizing that capability gap when we are looking 
at the somewhat starvation period we went through at the same 
time of the very ambitious programs of both Russia and China.
    Senator Inhofe. Start with Ms. Eaglen.
    Ms. Eaglen. Yes, sir. I would step back for a moment and 
offer some principles, because there is no doubt we are 
depending on the capability set or even the domain. It is 
differing by service and domain. But I would just get back to 
Senator Warren's comments that mass and attrition are back as 
force-planning principles. I think we need to consider that 
when we are looking at our capability gaps against China and 
Russia, in particular.
    Then we are on the wrong side of the cost exchange ratio. 
This is something Dr. Mahnken has written about with the NDS in 
2008. It is something we have all thought about up here on the 
committee.
    But those were two fundamental principles I would return to 
the defense strategy to address your question.
    Senator Inhofe. Okay. Any other comments on that?
    Dr. Karlin. To the extent possible, we should double down 
on areas of strength like undersea. That is particularly 
valuable vis-a-vis China and Russia. Our ability to conduct 
long-range strike, our short-range air defenses, balancing our 
Air Force more broadly, being cognizant that we are not going 
to have all the F-35s one might want, instead being able to 
mature fourth-generation aircraft, missile defense also being 
critical.
    But in particular, we do need to recognize that the 
conflicts of the future are going to be uglier than what we 
faced in the last 15 or so years. While we have thought about 
Iraq and Afghanistan as big conflicts in some way, they are 
really not, when we begin to envision what a potential war with 
Russia or China might look like.
    Senator Inhofe. I cannot think of anything uglier than an 
ICBM coming.
    My time has expired. But I want to compliment you, General, 
on a statement that you made. It is one sentence. I will read 
it. ``This is the situation we find ourselves in today with the 
smallest military we have had in 75 years equipped with rapidly 
aging weapons and employed at a very high operational pace, 
endeavoring to satisfy our global defense objectives.'' Good 
statement.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you all for being here today. Let me begin by joining 
a number of my colleagues in expressing regret, I guess is the 
understatement of the morning, about the tax
    plan that the United States Senate may approve in the next 
24 hours, which would increase our debt astronomically and 
probably undercut most of the very insightful suggestions that 
you have made.
    I am reminded that a former Chairman of the Joint Chiefs of 
Staff, I think it was Mike Mullen, said that the greatest 
threat to our national security is our national debt. The 
greatest threat to our national security is our national debt.
    It has implications across the spectrum of American life 
that undermine our will to defend ourselves and to invest the 
kinds of resources that are necessary to build a national 
defense that is worthy of the greatest Nation in the history of 
the world.
    The national debt is not about just numbers, it is about 
faces, General, the young men and women who we recruit to serve 
and sacrifice for our Nation. You know better than any of us 
who are in the room today, except perhaps for the chairman and 
the ranking member who have served with such distinction in our 
armed services. So to the extent that you have a voice in this 
process, I would urge you to use it and hope that you will.
    There has been very little mention of the attack by Russia 
on the United States of America.
    Is there anyone on this panel who questions that Russia 
attacked the United States, in fact, attacked our elections and 
our democracy in 2016?
    I take it by your silence that you agree. In fact, of 
course, the intelligence community is unanimous on that point.
    I would wonder whether anyone on this panel believes that 
we have responded sufficiently to make Russia pay a price for 
that aggression, a real attack on our democracy. Have we made 
Russia pay a price for that attack?
    Again, I would take it that you all agree that the answer 
is no.
    In fact, this administration, in my view, has failed to 
oppose, condemn, or hold Russian President Vladimir Putin 
accountable for that attack, or the invasion of Ukraine, or 
intervention in Syria.
    The lack of an articulated, clear strategy on Russia belies 
the commitment of blood and treasure, as the United States is 
doing now in so many parts of the world without sufficient 
resources. In fact, General Waldhauser of AFRICOM came to 
testify before us in March of this year and said, ``Only 
approximately 20 to 30 percent of Africa Command's ISR 
requirements are met,'' referring to intelligence, surveillance 
and reconnaissance.
    We are failing to support right now, not 10 years from now, 
but right now, the troops that we have deployed around the 
world.
    In my view, the investment of cyber--Senator Shaheen 
referred to it in terms of the command. But is there anybody on 
this panel who feels that we are investing sufficiently in 
cyber right now?
    Again, I take it that your silence indicates you agree, we 
are insufficiently investing in cyber where $1 trillion is 
unnecessary to have an impact. Far less dollars are necessary 
to defend against the kinds of threats that we see in cyber, 
including most prominently from Russia, China, and North Korea, 
but all kinds of asymmetric threats as well.
    So my time is expiring. But we have focused on the dollars 
necessary, the dollars versus the strategy. I would suggest 
that a much more focused and deliberate strategy is necessary 
in many parts of the world and in many parts of our defense.
    Thank you, Mr. Chairman.
    Chairman McCain. I thank the Senator. Could I just point 
out that when you are having your enlisted people working 100-
hour workweeks, you cannot dismiss that, and I am sure that you 
are clearly aware of that.
    Senator Blumenthal. I am not only aware, Mr. Chairman, but 
I very much support the comments that you made about it.
    Chairman McCain. I thank you.
    Anything else? Anyone would like to correct the record?
    Well, this has been very helpful, this hearing. I thank all 
the witnesses.
    This hearing is adjourned.
    [Whereupon, at 12:12 a.m., the hearing was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
